APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(September 10, 2019) . . . . . . . . . . App. 1
Appendix B Judgment in a Criminal Case in the
United States District Court for the
Northern District of Georgia Atlanta
Division
(March 26, 2018) . . . . . . . . . . . . . App. 33
Appendix C Order Denying Petition for Rehearing
and Petition for Rehearing En Banc in
the United States Court of Appeals for
the Eleventh Circuit
(November 19, 2019) . . . . . . . . . . App. 41
Appendix D U n i t e d
States’ Sentencing
Memorandum in the United States
District Court for the Northern
District of Georgia Atlanta Division
(March 26, 2018) . . . . . . . . . . . . . App. 43
Appendix E Requests to Charge in the United
States District Court for the Northern
District of Georgia Atlanta Division
(October 31, 2017) . . . . . . . . . . . . App. 55
Appendix F Criminal Indictment in the United
States District Court for the Northern
District of Georgia Atlanta Division
(November 21, 2016) . . . . . . . . . . App. 57

ii
Appendix G Excerpts of Jury Trial Transcripts in
the United States District Court for
the Northern District of Georgia
Atlanta Division
(November 13-15, 2017) . . . . . . . App. 66
Appendix H Statutes
18 U.S.C. § 1341 . . . . . . . . . . . . . App. 95
18 U.S.C. § 1343 . . . . . . . . . . . . . App. 96
18 U.S.C. § 1344 . . . . . . . . . . . . . App. 96
Appendix I Defendant’s Exhibit 3A: Colony
Capital Acquisitions, LLC Letter to
Jordan Roeschlaub
(October 25, 2013) . . . . . . . . . . . . App. 98
Appendix J Mandate in the United States Court of
Appeals for the Eleventh Circuit
(January 15, 2020) . . . . . . . . . . App. 116

App. 1

APPENDIX A
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-11333
D.C. Docket No. 1:16-cr-00407-TCB-JSA-1
[Filed September 10, 2019]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiff-Appellee,
)
)
versus
)
)
ALPHONSO I. WATERS, JR.,
)
)
Defendant-Appellant. )
________________________________ )
Appeal from the United States District Court
for the Northern District of Georgia
Before ED CARNES, Chief Judge, JULIE CARNES,
and CLEVENGER,* Circuit Judges.

*

Honorable Raymond C. Clevenger, III, United States Circuit
Judge for the Federal Circuit, sitting by designation.

App. 2
ED CARNES, Chief Judge:
In this wire fraud case, we are once again
confronted with the question of when a lie is just a lie
and when it is a federal crime. “It is conceded that
there is a class of lies, voluntary, aimless, yet weak and
wicked lies,” Green’s Adm’r v. Bryant, 2 Ga. 66, 68
(1847), that our law does not forbid. And the federal
wire fraud statute “forbids only schemes to defraud, not
schemes to do other wicked things, e.g., schemes to lie,
trick, or otherwise deceive.” United States v. Takhalov,
827 F.3d 1307, 1310 (11th Cir.), as revised (Oct. 3,
2016), opinion modified on denial of reh’g, 838 F.3d
1168 (11th Cir. 2016). “The difference,” we have
explained, “is that deceiving does not always involve
harming another person; defrauding does.” Id.
Alphonso Waters, Jr., relies on that distinction to
argue that the lies he told in the process of obtaining a
$6 million loan did not amount to fraud. He sought that
loan in 2013 from a private lender who discovered that
Waters had several years’ worth of federal tax liens
outstanding. To calm the lender’s concerns, Waters
sent it a letter that appeared to be from the IRS
approving him for a payment plan to pay off the tax
liens. Then he sent the lender another letter stating
that, as far as he knew, the first letter really was from
the IRS. Both of those letters were lies –– lock, stock,
and barrel; stem to stern, top to bottom. But, Waters
argues, they weren’t statutorily damned lies; they
weren’t lies constituting wire fraud because they didn’t
affect the bargain between the parties. He reasons that
any lie he told about his creditworthiness was harmless
because the collateral for the loan was worth $8.4

App. 3
million, which is more than the total amount of the
loan. We are not convinced.
I. BACKGROUND
A. The Scheme
Waters was the CEO of Family Practice of Atlanta,
a medical practice he owned and operated with his
wife, Dr. Sondi Moore-Waters, a physician. He ran the
business side of things, she ran the medical side.
Sometime around 2011 they decided they needed a
bigger building for the growing practice. They formed
Sondial Properties, LLC (a portmanteau of the couple’s
names, Sondi and Al), and the company borrowed
about $4 million in the form of two different
construction loans from JP Morgan Chase Bank. Those
loans matured on October 18, 2013, and Sondial
immediately defaulted on them because of delays and
cost overruns with the construction.
Waters sought the help of a commercial mortgage
broker in finding a $6 million transitional loan so he
could pay back the $4 million to Chase and also finish
construction. Waters’ broker, Tony Baldwin, contacted
Chesterfield Faring, Ltd., a real estate services and
investment firm that specialized in finding funding for
lapsing or lapsed loans. Chesterfield’s CEO was a man
named Larry Selevan. Selevan and his company helped
borrowers find loans by researching the financial
viability of a proposed project and packaging that
information so potential lenders could easily decide
whether to provide financing.

App. 4
Selevan proposed the loan project to Colony Capital,
LLC. Colony was a private equity firm and real estate
investment trust that provided financing for
commercial realty projects deemed to exceed a bank’s
normal risk profile. Michael Sanchez, the senior vice
president of Colony, oversaw Sondial’s loan application.
He understood that the loan “had to be closed very
quickly” so Waters could pay off Chase and meet
construction deadlines. On October 25, 2013, Sanchez
sent Chesterfield a term sheet outlining the terms and
conditions that Colony proposed for the loan. Under the
proposal Colony would lend Sondial $6 million and, in
exchange, it would receive a first priority mortgage on
the new building and rights to all leases and rents
there, as well as about a 7% interest rate for the
two-year initial term. Al Waters signed the term sheet
on behalf of Sondial.
With the terms of the loan all set, the due diligence
phase began. Waters and Moore-Waters filled out a
personal financial statement for Colony, listing their
assets, income, liabilities, and things of that nature. To
say the least, they weren’t as forthcoming as they
should have been. The couple left blank the line asking
them about any unpaid income taxes, and they listed
“0” as the amount or value of outstanding liens and
other “assessments payable.” Truth be told, the couple
had nearly half a million dollars of outstanding federal
tax liens filed against them. And the truth was told, or
at least uncovered, when Colony ran a background
check a few weeks later that turned up the tax liens.1
1

Those liens were for $32,917.77 from tax year 2007; $37,109.61
from 2008; $68,111.60 from 2009; and $328,656.00 from 2010, for
a total of $466,794.98.

App. 5
As you can imagine, that discovery wrenched the
lending process to a halt. When he found out about the
liens Sanchez was “very very angry” because it “was an
item that absolutely should have been disclosed” earlier
in the process. He saw the lack of disclosure as a “deal
killer” because he didn’t want “to close a transaction
with [those] outstanding liens.” Sanchez explained:
This [sort of thing] is disclosed up front. This
is something that when you find out during
when you run a background check and hear for
the first time, that that [sic] is a huge red flag in
terms of whether or not, you know, this borrower
has been disclosing and been forthright on what
his financial condition is.
Selevan, the CEO of Chesterfield, encouraged
Sanchez not to walk away from the deal and to work
with Waters while they tried to come up with a solution
to the tax liens. Sanchez agreed to wait and see. He
considered the liens a “gating issue” that had to be
resolved before the loan could be closed. Waters’
attorney, David Gentry, understood that. Because he
did, on December 13, 2013, he sent the IRS Taxpayer
Advocate a letter asking for approval of a payment plan
and requesting that the IRS provide “immediate
assistance” so Waters could close the loan with Colony
by December 18.
Also on December 13, Waters himself called his
Congressman’s office to ask for help getting the tax
liens removed. The constituent services representative
told him that the lien removal process typically took
30–45 days, but that it would take longer for him
because the IRS had already closed for the holidays

App. 6
and would not begin processing any new requests until
January. Waters told the representative to send the
request to the IRS anyway, which she did.
Paraskevidekatriaphobics would note that December
13 was a Friday.
The following Monday, December 16, Waters
emailed Gentry a letter that seemed to be from the
IRS. It was also dated December 16, 2013, and
appeared to be on “Department of the Treasury:
Internal Revenue Service” letterhead and bore the seal
of the IRS Office of the Chief Counsel. It stated in full:
December 16, 2013
VIA US MAIL AND FACSIMILE
Re: Case No. 5684374
Dear Taxpayers:
We are in receipt of your letter submitted to us
by the office of The Honorable Hank Johnson,
Member, U.S. House of Representative[s]
regarding Case No. 5684374 dated December 13,
2013.
The letter dated December 13, 2013 referencing
Financial Hardship — Immediate Assistance
needed was a request to expedite your form
433A which was received in our office December
2, 2013.
In accordance with Section 5.14.2.1 your request
for Partial Payment Installment Agreement
(PPIA) has been approved. A field representative

App. 7
will contact you in 60–90 days to discuss in
further detail the financial agreement.
I hope you find this letter helpful in the
resolution of your immediate requirements.
Please maintain copies of this letter for your
permanent records.
Sincerely,
Rebecca Langford
District Director
Four minutes after receiving the letter, Gentry
forwarded it to Colony’s attorney, Beau Baker, and
asked if it resolved Colony’s concerns. It did not. Baker
worried that the details of the IRS payment plan the
letter referred to were months away, while the parties
were trying to close the loan in the next couple of
weeks. Sanchez, the senior vice president for Colony,
also concluded that the letter was insufficient because
it did not contain any specifics of the IRS payment
plan.
Then there was the question of authenticity. After
talking with tax experts at his law firm, Baker became
concerned that the letter might not really be from the
IRS at all. He did a Google search for “Rebecca
Langford District Director” and learned that the IRS
had phased out the “District Director” position nine
years before, sometime around 2004. Baker wrote to
the IRS to verify the letter, and Tony Baldwin, the
initial mortgage broker, asked Waters if he had the
contact information for Rebecca Langford. Waters
responded that he did not. Undeterred, Waters sent
this letter to Baldwin, Gentry, and Selevan:

App. 8
December 30, 2013
RE: IRS Letter
To Whom It May Concern:
To the best of my knowledge the letter from
Rebecca Langford IRS District Director and
dated December 16 2013 with the subject matter
“Partial Payment Installment Agreement” is
from Rebecca Langford IRS District Director.
A copy of the letter is attached to this email.
Thank you.
Kind Regards,
Al Waters
Waters’ letter didn’t appease Colony. A few days
into the new year, in response to an email from
Baldwin that the delay in financing was putting
Waters “in a very bad position,” Sanchez (the Colony
VP) emailed Baldwin, Waters, and others working on
the deal: “With all due respect, we were not expecting
to deal with IRS liens in the hundreds of thousands of
dollars with no plan in place. I am not comfortable with
a ‘to be determined’ plan with no clear documentation.”
Sanchez later testified that the tax liens were
“absolutely critical things to resolve before . . . getting
even close to approving this loan for closing.”
It turned out, of course, that the IRS letter was
“outrageously bogus,” as Waters’ trial attorney would
later put it. Nobody at the IRS had approved a
payment plan for Waters; the IRS Office of Chief
Counsel did not have district directors in 2013; and

App. 9
there was no one at the IRS named Rebecca Langford.
The letter was as phony as Piltdown Man, although it
did not take forty-one years to disprove. Baker soon
confirmed that the letter was false, and Colony killed
the transaction in January 2014. Waters eventually got
a loan from a different lender. That was not all he got.
B. Trial And Sentencing
Waters also got indicted on two counts of wire fraud
in violation of 18 U.S.C. § 1343. One count was for
sending the fraudulent IRS letter and the other one
was for sending the email stating that letter was
authentic. Waters pleaded not guilty and went to trial
in November 2017. He moved for a judgment of
acquittal at the conclusion of the government’s case in
chief, arguing that there was insufficient evidence for
the jury to find that he had created the fraudulent
documents and that, in any event, the deceptive
documents were not material to the proposed loan
agreement. The district court denied the motion and
Waters failed to renew it at the end of his case.
Waters did not testify at trial, but through his
counsel he argued to the jury that the prosecution had
not proved beyond a reasonable doubt that Waters was
responsible for the false IRS letter or that he had
intentionally lied in his email about the letter. He also
argued that the IRS letter wasn’t material to the loan
transaction because well into January 2014, a month
after the IRS letter had been circulated, the two
mortgage brokers (Baldwin and Selevan) tried to find
other ways for Waters to pay off the tax liens and make
the loan work.

App. 10
One issue that came up at trial was how to charge
the jury on wire fraud. Waters requested a jury
instruction on the difference between a scheme to
deceive and a scheme to defraud based on this Court’s
decision in United States v. Takhalov, 827 F.3d 1307,
1312–13 (11th Cir. 2016). He asked the judge to
instruct the jury that: “to defraud, one must intend to
use deception to cause some injury; but one can deceive
without intending to harm at all”; and “if a Defendant
does not intend to harm the victim — to obtain, by
deceptive means, something to which the Defendant is
not entitled — then he has not intended to defraud the
victim.” Doc. 45 at 12 (quoting Takhalov, 827 F.3d at
1312–13).
The government opposed Waters’ proposed
instruction as unnecessary and incomplete—
unnecessary because the case was a “straightforward
scheme to defraud,” and incomplete because the
proposed instruction did not instruct the jurors how to
tell if a scheme caused harm or not, which happened
only if the lie affected the “nature of the bargain itself.”
See Takhalov, 827 F.3d at 1313.
The judge told the parties that he was not inclined
to give Waters’ proposed instruction, but that if he did
give it, he would include an explanation about how to
tell if the lie caused harm and affected the nature of
the bargain itself. Waters did not agree to that
solution. 2 The judge then overruled Waters’ proposal
2

Here’s the exchange:
The Court: I am not inclined to give [Waters’ proposed
instruction], but if I did give it I would add the
government’s instruction. How would you feel about that,

App. 11
and gave the jury a charge based on the pattern
instruction, without any language about the difference
between defrauding and deceiving. See Pattern Crim.
Mr. Kish [the attorney for Waters]?
Mr. Kish: Having never heard this until this moment, the
government’s instruction, I would need to look at it. But
my thinking is that the reason I structured my instruction
in the manner in which I did was because it is the essence
of the [Takhalov] decision, it is what the Court said the
rule of law was. All of these examples —
The Court: Read the instruction again, the proposed
defendant’s instruction?
Mr. Kish: I have just described what is needed to prove a
scheme to defraud; however, quote, there is a difference
between deceiving and defrauding. To defraud . . . one
must intend to use deception to cause some injury. But one
can deceive . . . without intending to harm at all. Put
another way, one who defrauds always deceives, but one
can deceive without defrauding. A defendant schemes to
defraud only if he schemes to deprive someone of
something of value by trick, deceit, chicane, or
over-reaching. . . . But if a defendant does not intend to
harm the victim to obtain by deceptive means something
to which the defendant is not entitled, then he has not
intended to defraud the victim. Furthermore, a schemer
who tricks someone into a transaction has not schemed to
defraud so long as he does not intend to harm the person
he intends to trick. And this is so, even if the transaction
would not have occurred but for the trick. For if there is no
intent to harm, there can only be a scheme to deceive, but
not one to defraud.
The Court: I think that is overly confusing, and the subject
is adequately covered by the charge as given now. So I
respectfully overrule the defendant’s request for inclusion
of his proposed charge no. 9.
(Italics omitted.)

App. 12
Jury Instr. 11th Cir. OI O51 (2016).3 The jury found
3

This is the charge the district court gave:
It is a federal crime to use interstate wire, radio, or
television communications to carry out a scheme to
defraud someone else. The defendant can be found guilty
of this crime only if all the following facts are proved
beyond a reasonable doubt. One, the defendant knowingly
devised or participated in a scheme to defraud, or to obtain
money or property by using false pretenses,
representations, or promises. Two, the false pretenses,
representations, or promises were about a material fact.
Three, the defendant acted with the intent to defraud. And
four, defendant transmitted or caused to be transmitted,
by wire or some communication in interstate commerce, to
help carry out the scheme to defraud.
The phrase scheme to defraud includes any plan or
course of action intended to deceive or cheat someone out
of money or property by using false or fraudulent
pretenses, representations, or promises. A statement or
representation is false or fraudulent if it is about a
material fact that the speaker knows is untrue, or makes
with reckless indifference to the truth, and makes with the
intent to defraud. A statement or representation may be
false or fraudulent when it is a half truth, or effectively
conceals a material fact, and is made with the intent to
defraud.
A material fact is an important fact that a reasonable
person would use to decide whether to do or not do
something. A fact is material if it has the capacity or
natural tendency to influence a person’s decision. It doesn’t
matter whether the decision maker actually relied on the
statement or knew or should have known that the
statement was false; however, not all misrepresentation or
omissions constitute a scheme to defraud. The
misrepresentation or omission must be material, and it
must be one on which a person of ordinary prudence would
rely.

App. 13
Waters guilty on both counts of wire fraud.
Before sentencing, the probation office prepared a
presentence report and recommended the application
of an 18-level enhancement under U.S.S.G.
§ 2B1.1(b)(1)(J) for an intended loss amount of more
than $3.5 million but less than $9.5 million. That
would have made Waters’ total offense level 25 and his
guidelines range 57 to 71 months in prison. Waters
objected to the enhancement on the basis that there
was no actual or intended loss. He pointed out that the
building, which was to serve as collateral for the loan,
had been appraised in April 2014 to be worth $8.4
million, $2.4 million more than the amount of the
proposed loan from Colony. The government agreed
that this meant the enhancement should not apply.
That concession brought Waters’ guidelines range down
to zero to six months, and the district court sentenced
him to six months in prison and one year of supervised
release.
The intent to defraud is the specific intent to deceive
or cheat someone, usually for personal financial gain or to
cause financial loss to someone else. To prove intent, the
government must establish that the defendant believed
that the supposed victim would act or refrain from acting
in reliance upon that representation. The government does
not have to prove all of the details alleged in the
indictment about the precise nature and purpose of the
scheme. It also doesn’t have to prove that the material
transmitted by interstate wire was itself false or
fraudulent, or that using the wire was intended as the
specific or exclusive means of carrying out the alleged
fraud, or that the defendant personally made the
transmission over the wire, and it doesn’t have to prove
that the alleged scheme actually succeeded in defrauding
anyone.

App. 14
Waters appeals his convictions and sentence. 4
II. THE TAKHALOV ISSUES
Waters contends that the district court abused its
discretion by not giving his proposed jury instruction
on the difference between fraud and deceit. He also
contends that there was insufficient evidence for the
jury to find him guilty of wire fraud because the
government did not show that he intended to harm
Colony. Both contentions rely on our decision in
Takhalov. Since that case came out, a judge of our
Court has questioned some of the statements in that
opinion. See United States v. Feldman, 931 F.3d 1245,
1265–74 (11th Cir. 2019) (W. Pryor, J., concurring). We
need not get into that here. Even assuming that every
statement in our Takhalov opinion is correct, this case
is distinguishable.
A. The Takhalov Case
The federal wire fraud statute makes criminal any
“scheme or artifice to defraud.” 18 U.S.C. § 1343. The
statute does not define what that is, but we have. See
United States v. Bradley, 644 F.3d 1213, 1239–40 (11th
Cir. 2011). And one thing we’ve recognized,
tautologically perhaps, is that to be convicted under the
§ 1343 fraud statute a defendant’s “scheme must be a
scheme to defraud rather than to do something other
than defraud.” Takhalov, 827 F.3d at 1312. What is
essential to a scheme to defraud is a question we
confronted in Takhalov.
4

Waters is currently out on bond and has not begun serving his
sentence.

App. 15
The Takhalov defendants were a group of bar
owners who had hired women to pose as tourists and
lure visiting businessmen into the defendants’ bars and
nightclubs. Id. at 1310. Then bartenders at the clubs
would trick the unsuspecting businessmen into buying
ridiculously overpriced alcohol by misrepresenting the
prices of drinks or forging the men’s signatures on their
credit card receipts. See id. at 1310–11. The defendants
admitted that they had hired the “B-girls” to lure the
men into the clubs and that the women did not tell the
men that they had been hired to do so. Id. But the
defendants denied knowing about the fraud that took
place once the men went into the clubs. Id. The
defendants claimed that as far as they knew, once the
men came to the clubs they “got what they paid for.” Id.
at 1311.
The Takhalov defendants asked the district court to
instruct their jury that “failure to disclose the financial
arrangement between the B-girls and the Bar, in and
of itself, is not sufficient to convict a defendant” of wire
fraud. Id. at 1314 (brackets and quotation marks
omitted). The district court refused to give that
instruction, the government argued that the jury could
return a verdict based on that initial trickery alone,
and the jury did. Id. at 1310–11. We reversed the
defendants’ convictions. Id. at 1324.
Our reasoning proceeded in three main steps. First,
we noted that “there is a difference between deceiving
and defrauding: to defraud, one must intend to use
deception to cause some injury; but one can deceive
without intending to harm at all.” Id. at 1312. Second,
that distinction meant that “if a defendant does not

App. 16
intend to harm the victim — to obtain, by deceptive
means, something to which the defendant is not
entitled — then he has not intended to defraud the
victim.” Id. at 1313 (brackets and quotation marks
omitted). And third, “[f]rom that conclusion, a corollary
follows: a schemer who tricks someone to enter into a
transaction has not ‘schemed to defraud’ so long as he
does not intend to harm the person he intends to trick.”
Id. “[T]his is so,” we said, “even if the transaction would
not have occurred but for the trick. For if there is no
intent to harm, there can only be a scheme to deceive,
but not one to defraud.” Id.
To tell the difference between a scheme to deceive
and a scheme to defraud, we instructed courts to look
at “the nature of the bargain itself.” Id. And a lie about
the nature of the bargain can take two primary forms.
Id. First, “the defendant might lie about the price (e.g.,
if he promises that a good costs $10 when it in fact
costs $20).” Id at 1313–14. Or second, “he might lie
about the characteristics of the good (e.g., if he
promises that a gemstone is a diamond when it is in
fact a cubic zirconium).” Id. at 1314. “In each case, the
defendant has lied about the nature of the bargain and
thus in both cases the defendant has committed wire
fraud.” Id.
By contrast, we explained, “if a defendant lies about
something else — e.g., if he says that he is the long-lost
cousin of a prospective buyer — then he has not lied
about the nature of the bargain, has not ‘schemed to
defraud,’ and cannot be convicted of wire fraud on the
basis of that lie alone.” Id. And that is so even if the
buyer would not have bought anything but for the lie.

App. 17
Id. (citing United States v. Shellef, 507 F.3d 82, 108 (2d
Cir. 2007) (drawing “a fine line between schemes that
do no more than cause their victims to enter into
transactions that they would otherwise avoid — which
do not violate the mail or wire fraud statutes — and
schemes that depend for their completion on a
misrepresentation of an essential element of the
bargain — which do violate the mail and wire fraud
statutes”); United States v. Starr, 816 F.2d 94, 98 (2d
Cir. 1987) (“Misrepresentations amounting only to a
deceit are insufficient to maintain a mail or wire fraud
prosecution. Instead, the deceit must be coupled with
a contemplated harm to the victim . . . affect[ing] the
very nature of the bargain itself.”) (internal quotation
marks omitted); United States v. Regent Office Supply
Co., 421 F.2d 1174, 1182 (2d Cir. 1970) (“[W]e conclude
that the defendants intended to deceive their
customers but they did not intend to defraud them,
because the falsity of their representations was not
shown to be capable of affecting the customer’s
understanding of the bargain nor of influencing his
assessment of the value of the bargain to him, and thus
no injury was shown to flow from the deception.”).
B. The District Court’s Jury Instructions
With that background in mind, we turn to Waters’
contention that the district court erred by refusing to
give his Takhalov-based jury instruction. We review
that decision only for an abuse of discretion. United
States v. Dohan, 508 F.3d 989, 993 (11th Cir. 2007).
“The failure of a district court to give an instruction is
reversible error where the requested instruction
(1) was correct, (2) was not substantially covered by the

App. 18
charge actually given, and (3) dealt with some point in
the trial so important that failure to give the requested
instruction seriously impaired the defendant’s ability
to conduct his defense.” United States v. Eckhardt, 466
F.3d 938, 947–48 (11th Cir. 2006).
Waters requested that the district court give this
instruction:
I have just described what is needed to prove
a scheme to defraud. However, there is a
difference between deceiving and defrauding; to
defraud, one must intend to use deception to
cause some injury; but one can deceive without
intending to harm at all. Put another way, one
who defrauds always deceives, but one can
deceive without defrauding.
A Defendant schemes to defraud only if he
schemes to deprive someone of something of
value by trick, deceit, chicane or overreaching.
But if a Defendant does not intend to harm the
victim — to obtain, by deceptive means,
something to which the Defendant is not
entitled — then he has not intended to defraud
the victim.
Furthermore, a schemer who tricks someone
to enter into a transaction has not schemed to
defraud so long as he does not intend to harm
the person he intends to trick. And this is so
even if the transaction would not have occurred
but for the trick. For if there is no intent to

App. 19
harm, there can only be a scheme to deceive, but
not one to defraud.
(Alterations and quotation marks omitted).
The district court did not abuse its discretion when
it refused to give that instruction. Though composed of
quotations from our opinion in Takhalov, Waters’
“proposed instruction was an incomplete statement of
the law and would have confused the jury.” United
States v. Solomon, 686 F.2d 863, 876 (11th Cir. 1982).
The proposal emphasized the requirement that a
defendant have the intent to harm, but it never defined
what harm meant. And it introduced the distinction
between a scheme to deceive and a scheme to defraud,
but it didn’t tell the jurors how to tell the difference
between them. Without those tools the jury could
hardly have been expected to apply our Takhalov
decision correctly.
The government pointed all of that out at the charge
conference when it asked the district court to supply
the missing link in Waters’ instruction. The additional
language proposed by the government would have
instructed the jury that “[t]he ‘scheme to defraud,’ as
that phrase is used in the wire fraud statute, refer[s]
only to those schemes in which a defendant lies about
the nature of the bargain itself.” Doc. 89 at 5–6
(quoting Takhalov, 827 F.3d at 1313). That addition
would have enabled the jurors to tell the difference
between the two kinds of schemes because it would
have defined for them what “harm” means. To recap: In
a scheme to deceive, the victim of the lie hasn’t been
harmed because he still received what he paid for. But
in a scheme to defraud, the victim has been harmed

App. 20
because the misrepresentation affected the nature of
the bargain, either because the perpetrator lied about
the value of the thing (for example, promising
something costs $10 when it actually costs $20), or
because he lied about the thing itself (for example,
promising a gemstone is a diamond when it is actually
a cubic zirconium). Takhalov, 827 F.3d at 1313–14.
Either way, though, the victim didn’t get what he paid
for.
By not including that distinction, and then not
accepting the government’s proposal to add it, Waters
asked the court to give an incomplete and misleading
jury instruction. The court did not abuse its discretion
when it deemed the instruction “overly confusing.” See
United States v. Cooper, 926 F.3d 718, 736 (11th Cir.
2019) (affirming district court’s rejection of a
defendant’s proposed instruction “because it was
misleading and confusing”) (quotation marks omitted);
United States v. Silverman, 745 F.2d 1386, 1396 (11th
Cir. 1984) (noting that a district court “is bound to
refuse a requested instruction that is incomplete,
erroneous, or misleading”).
Waters’ argument also fails for another reason.
Unlike in Takhalov, his proposed jury instruction did
not concern a “point in the trial so important that
failure to give the requested instruction seriously
impaired [his] ability to conduct his defense.” Eckhardt,
466 F.3d at 947–48. Recall that Waters had two main
theories at trial. The first was that he didn’t create the
IRS letter and didn’t know it was fake when he sent it
to Colony. The district court’s refusal to give the

App. 21
proposed instruction did not impact the presentation of
that theory at all.
Waters’ second theory was that the IRS letter
“didn’t matter” because the “deal was going forward
with or without that letter.” His attorney made the
point this way in his closing argument:
Did the Langford letter even make any
difference, considering what happened over the
course of time? We will go over it again, but I
think we pretty well established this at trial. . . .
After the Rebecca Langford letter is sent on
[December] 16th, minutes later, Larry Selevan,
chomping at the bit, says, well, good enough for
me. I am ready to go. Nobody cared about the
Rebecca Langford Letter. Nobody cared about
the taxes. . . . The Langford letter didn’t mean
squat. And the reason it didn’t mean squat is
because of what the witnesses told you. We
wanted the deal to finalize. . . . Nobody worried
about whether the Rebecca Langford letter was
authentic. To use the words of the lawyers, it
has to be material. It has to be important. It was
not important.
As Waters’ attorney told the jury, that is an
argument about materiality. The judge explicitly
defined that term for the jurors (“A material fact is an
important fact that a reasonable person would use to
decide whether to do or not do something”) and
instructed them that to be guilty of wire fraud Waters
must have omitted or misrepresented a fact that was
material. See Pattern Crim. Jury Instr. 11th Cir. OI
O51 (2016). So when Waters argued that the false IRS

App. 22
letter was not material because the deal was going
forward “with or without that letter,” and when he said
that the letter did not concern a material fact because
“nobody cared about the taxes,” his arguments were in
accord with the court’s instructions. Of course, the deal
did not go forward “with or without that letter” and
that may be one reason the jury rejected his argument.
But the jury’s rejection of Waters’ theory does not mean
he was “seriously impaired” in his ability to present
that theory to the jury. Eckhardt, 466 at 948. He
wasn’t.
This is materially different from what happened in
Takhalov. Unlike in Waters’ case, the jury instruction
the Takhalov defendants requested was integral to
their argument. Their argument did not hinge on
whether the businessmen still would have gone into the
clubs had they known of the true relationship between
the B-Girls and the bar owners. See 827 F.3d at
1310–11. Instead, the defendants argued that their
concealment of their relationship with the B-Girls did
not constitute wire fraud, regardless of whether that
concealment was material to the businessmen’s
decisions to enter the clubs. That is why the defendants
asked for this jury instruction: “Failure to disclose the
financial arrangement between the BGirls and the Bar,
in and of itself, is not sufficient to convict a defendant
of any offense.” Id. at 1311 (alterations omitted). The
Takhalov defendants did not get to present their theory
to the jury because the district court rejected their
proposed jury instruction that would have put that
theory before the jury. As we explained, “[w]ithout an
instruction supporting the defendants’ theory, the jury
was not required to believe this theory . . . [and] the

App. 23
jury could believe what the government argued in its
closing: that the concealment was material and the
defendants acted with the intent to deceive or cheat the
victims.” Id. at 1322–23.
By contrast, Waters’ proposed jury instruction on
the difference between fraud and deceit did not propose
either of his two defense theories. As a result, the
rejection of his jury instruction did not impair his
presentation of a defense theory. See Eckhardt, 466
F.3d at 947–48 (holding that defendant accused of
violating the Communications Decency Act was not
impaired by trial court’s refusal to alter its jury
instruction defining what constituted an “obscene”
phone call because defendant’s theory of the case was
that he did not make the alleged phone calls). Nor did
Waters change a theory at trial in response to the
court’s rejection of his proposed jury instruction, as the
Takhalov defendants did. Not until Waters got to this
Court did he argue that his misrepresentations weren’t
wire fraud because they did not affect the bargain
between the parties. (More on that argument below.)
He did not consent to the government’s proposed
instruction that would have instructed the jury on that
very topic. Given all of that, the district court did not
abuse its discretion when it declined to give Waters’
proposed jury instruction. 5
5

One side point is worth addressing. At the final charge
conference Waters argued that his proposed jury instruction was
needed “[b]ecause there is the chance that jurors could think
that . . . the failure to include all of the tax liens on . . . the
personal financial statement by itself would be sufficient to show
fraud.” By not raising this point on appeal Waters has abandoned
any argument that the jury found him guilty based on the false
financial statement instead of the fraudulent IRS letter and the

App. 24
C. Sufficiency Of The Evidence
We turn now to Waters’ second Takhalov-based
argument: that the district court should have granted
his motion for a judgment of acquittal because there
was insufficient evidence that he intended to harm
Colony. “Ordinarily, we review de novo whether
sufficient evidence supports a conviction, viewing the
evidence and taking all reasonable inferences in favor
of the jury’s verdict.” United States v. Fries, 725 F.3d
1286, 1291 (11th Cir. 2013). But Waters did not renew
his motion for acquittal at the close of all the evidence
or present to the district court his current theory of
why there was insufficient evidence for the jury to find
him guilty. Because of his failure to renew the motion,
“we will reverse [his] conviction only where doing so is
necessary to prevent a manifest miscarriage of justice.”
Id. (quotation marks omitted). Which means only if we
find “either that the record is devoid of evidence of an
essential element of the crime or that the evidence on
a key element of the offense is so tenuous that a
conviction would be shocking.” Id. (quotation marks
omitted).
Relying on Takhalov, Waters argues that the tax
liens were peripheral to the proposed loan transaction
and, as a result, any lies about those liens (including
the letters he sent about the make-believe payment
plan with the IRS) could not constitute wire fraud
because they did not affect the bargain between the
parties. This is basically a repackaging of his jury
email Waters sent affirming the IRS letter. See AT&T Broadband
v. Tech Commc’ns, Inc., 381 F.3d 1309, 1320 n.14 (11th Cir. 2004)
(“Issues not raised on appeal are considered abandoned.”).

App. 25
charge argument, but with a twist: it relies on the law
in the instruction proposed by the government instead
of the instruction he suggested.
In Waters’ telling, the tax liens merely “went to the
integrity of management,” and the projected cash flow
from the new medical building formed the heart of the
bargain. He says that cash flow combined with the $2.4
million “over-collateralization” of the building itself
“ensured repayment of the requested Loan in full.”
And, as a result, “the removal of [the] tax liens was not
‘part of the bargain.’”
The jurors heard plenty of evidence that would
cause them to disbelieve that theory. For example,
Sanchez, Colony’s senior vice president, called the
discovery of the tax liens “a deal killer” because he did
not “want[] to close a transaction with the[]
outstanding liens.” And even after the folks at
Chesterfield Faring convinced Sanchez not to walk
away from the deal when he first learned of the liens,
he still considered the tax liens a “gating issue” that
had to be resolved before he would consider making the
loan. As he testified at trial: The liens were “absolutely
critical things to resolve before . . . getting even close to
approving th[e] loan for closing.”
Colony’s attorney, Beau Baker, testified to much the
same thing. Once he discovered that the tax liens
existed, he stopped working on the due diligence and
documentation for the loan until the liens could be
resolved. He explained to the jury: “[I]f there is a
creditor out there, especially a super creditor like the
Internal Revenue Service, that creditor could come
after your borrower later on or come after the

App. 26
guarantor, and that could put the payment stream that
is coming to my client in jeopardy.” The attorney
representing Waters in the deal, David Gentry, also
understood that Colony “required either the tax liens
get paid off or that some sort of payment plan be in
place with the IRS to pay it off over time” before the
loan could be closed.
To all of that, Waters says: Doesn’t matter. He
argues that Takhalov teaches that there’s a difference
between a scheme to deceive and a scheme to defraud.
And he says defrauding means that the material
misrepresentation must affect the nature of the
bargain and not something else. Waters points to
Takhalov’s reasoning that “even if the transaction
would not have occurred but for the trick,” Takhalov,
827 F.3d at 1313, “a wire-fraud case must end in an
acquittal if the jury nevertheless believes that the
alleged victims [would have] received exactly what they
paid for,” id. at 1314 (quotation marks omitted).
Purporting to apply that reasoning here, Waters argues
that his case should have ended in an acquittal
because, as the government itself conceded at
sentencing, the collateral was worth $2.4 million more
than the amount of the loan.
There are three reasons why Waters’ conclusion
does not follow from his premise. The first is that it
misconstrues the nature of the bargain with Colony. As
the government persuasively points out, the bargain
was not for Colony to be sucked into a time-consuming
and expensive foreclosure to mitigate its losses if
Waters was unable to make the payments on the loan.
The bargain was to make a solid loan in the first place

App. 27
and to receive loan payments without the threat of
outstanding tax liens getting in the way.
That theory was supported by lots of testimony at
trial. It’s why Sanchez described the tax liens as a
“gating issue,” and why Baker told the jury that he was
worried about the liens because they “could put the
payment stream that [was] coming to [Colony] in
jeopardy.” So the jury was free to conclude that Waters’
creditworthiness, as the guarantor of the loan with
Sondial, affected the value of the transaction and was
part of the bargain itself. See United States v. Appolon,
715 F.3d 362, 368–69 (1st Cir. 2013) (holding that
misrepresentations in loan applications used “to assess
[a] borrower’s creditworthiness” were material because
they were “capable of influencing [the lender’s]
decision”) (quotation marks omitted); see also United
States v. Rossomando, 144 F.3d 197, 201 (2d Cir. 1998)
(“[W]here a defendant deliberately supplies false
information to obtain a bank loan . . . the defendant’s
good-faith intention to pay back the loan is no defense
because he intended to inflict a genuine harm upon the
bank — i.e., to deprive the bank of the ability to
determine the actual level of credit risk and to
determine for itself on the basis of accurate information
whether, and at what price, to extend credit to the
defendant.”) (footnote omitted).
The second reason why the appraised value of the
collateral exceeding the amount of the loan does not
render the misrepresentations about the tax liens
immaterial is that the appraisal of the collateral did
not exist until after the deal with Colony fell through.
Waters’ misrepresentations to Colony about the tax

App. 28
liens occurred in December of 2013. Colony learned in
late January of 2014 that the letter from the IRS was
fake. It was at that point that Colony walked away
from the deal for good. Waters then courted another
company for the loan, and it was that other company,
Thorofare, that had the property appraised in April of
2014. The appraisal did not exist when Waters
misrepresented the facts about the tax liens, when
Colony was considering Waters’ loan application, when
Colony discovered the misrepresentations, or when it
walked away. Something that did not exist at the time
of the fraud cannot evidence a lack of intent to defraud.
The third reason why the appraisal cannot figure
into the sufficiency of the evidence to prove intent to
defraud is that sufficiency is judged based only on the
evidence before the jury. When deciding whether there
was sufficient evidence to convict, we may not consider
evidence the jury never heard. See United States v.
DeSimone, 660 F.2d 532, 538–39 (5th Cir. Unit B Nov.
1981). No evidence of the appraisal was ever put before
the jury. None. The first time it was mentioned was in
Waters’ sentencing memoranda, six months after the
jury had returned its verdict and gone home. That was
six months too late.
III. THE OTHER ISSUES
Waters has two more contentions, neither of which
has merit. First, he contends that the district court
committed reversible error by not making an “on-

App. 29
the-record waiver inquiry” about his decision not to
testify at trial.6 Waters was represented by an able
defense attorney whom the trial judge complimented
several times for doing a good job. And Waters
acknowledges that there is no “per se requirement that
the district court advise the defendant of his right to
testify and conduct an on-the-record inquiry into
whether a non-testifying defendant knowingly,
voluntarily, and intelligently waived the right to
6

The parties disagree about what standard of review applies to
this claim. The government argues that plain error review applies
because Waters did not object at trial, and that seems right. But
Waters relies on our decision in United States v. Hung Thien Ly,
646 F.3d 1307, 1318 (11th Cir. 2011), to argue that the standard
of review is “unsettled” and that structural error analysis may apply.
In Hung Thien Ly, the pro se defendant failed to object at trial
to the district court’s failure to correct his misunderstanding of his
right to testify. We rejected the government’s argument that we
should review only for plain error. Id. at 1312 & n.5. We explained:
“The Government contends that plain-error review must apply
because Ly never objected to the district court’s alleged denial of
his right to testify. In the context of Ly’s claim, this argument is
absurd. Ly’s argument on appeal is that his confusion regarding
his right to testify was so apparent during the court-initiated
colloquy that the district court was obligated to correct his
misunderstanding. By definition, Ly could not have objected to the
district court’s actions, for his claim lies in his ignorance of the
law.” Id. at 1312 n.5. Looking at the issue de novo, we held that the
district court had erred by not correcting the pro se defendant’s
misunderstanding of his right to testify, and then we assumed
without deciding that harmless-error analysis applied and held
that the error was harmful. Id. at 1318.
There are significant differences between this case and Hung
Thien Ly. The most obvious of them is that Waters was
represented by able counsel while the defendant in Hung Thien Ly
had no counsel. But even if we assume that de novo review applies,
Waters still cannot prevail on his claim that the district court
should have inquired about his decision not to testify.

App. 30
testify.” United States v. Van De Walker, 141 F.3d
1451, 1452 (11th Cir. 1998). So why does he contend
that the district court committed reversible error?
Because he was the “only person in a position to refute
the prosecution’s case,” thereby making his situation
“exceptional.”
We don’t accept that as a ground for relief. While
being in a position to refute the prosecution’s case may
have been a good reason for Waters to take the stand
(though we doubt it’s all that “exceptional”), it certainly
isn’t enough to establish that his decision not to testify
was unknowingly and unintelligently made. See Hung
Thien Ly, 646 F.3d at 1317 (“[A]bsent evidence to the
contrary, district courts should presume that the
defendant, even a pro se defendant, has made a
knowing and intelligent decision about whether to
testify.”).
Second, Waters also contends that the district court
made an erroneous factual finding that impacted his
sentence. We normally review the procedural
reasonableness of a sentence under an abuse-ofdiscretion standard, and a court abuses its discretion if
it “select[s] a sentence based on clearly erroneous
facts.” Gall v. United States, 552 U.S. 38, 51 (2007).
Because Waters did not object at the sentence hearing,
however, we review the alleged error only for plain
error. See United States v. Vandergrift, 754 F.3d 1303,
1307 (11th Cir. 2014) (using plain error review because
defendant failed to object on procedural reasonableness
grounds at sentencing). “Under plain error review, we
can correct an error only when (1) an error has
occurred, (2) the error was plain, (3) the error affected

App. 31
substantial rights, and (4) the error seriously affects
the fairness, integrity or public reputation of judicial
proceedings.” Dupree v. Warden, 715 F.3d 1295, 1301
(11th Cir. 2013).
Waters’ contention is based on a comment the judge
made at the end of the sentence hearing, after he had
announced Waters’ six-month sentence:
I don’t think this man is ever going to commit
another crime. It may not feel like it, but he got
a break. I mean, what a break. If that loan had
not been repaid, we are looking at about a
five-year sentence, so he got that break.
That was a misstatement. Waters had not paid back
a loan to Colony because there never was a loan from
Colony to repay. But Waters has not shown that the
misstatement constituted a clearly erroneous factual
finding because he has not shown that it was a factual
finding at all. Earlier in the hearing the district court
formally adopted the unobjected-to factual findings in
the PSR. Those findings made clear that although
Waters had applied for a loan from Colony, he had not
received one. The judge said that the fact that Colony
had not lost any loaned money “ma[de] a big difference”
for sentencing purposes. That is literally true. Viewed
in this context, we can’t say that the judge’s slip up
about the loan having been repaid — as opposed to
never having been made — was a relevant fact finding
instead of a stray comment at the end of a long
hearing. And it is one to which there was no objection.
Even if we were to consider the comment a clearly
erroneous factual finding, Waters has still not shown

App. 32
that it affected his sentence, as required to establish
plain error. See Vandergrift, 754 F.3d at 1312 (“In
order for an error to have affected substantial rights, it
must have affected the outcome of the district court
proceedings.”) (quotation marks omitted). According to
Waters, the misstatement affected his sentence
because it showed that the judge “did not believe that
[he] deserved any leniency because he already had
received the benefit of the Loan being repaid.” But the
judge himself gave three reasons for why he thought
that Waters did deserve leniency: (1) there was no
economic harm to Colony, (2) Waters’ conduct had
otherwise been lawful and upstanding, and (3) Waters
had a lot of community support. Not only that, but
after the judge had commented at the beginning of the
sentence hearing that he did not think that the
government’s proposed sentence of a year and a day
would be long enough, he ended up sentencing Waters
to only six months. That indicates the judge had an
open mind and gave consideration to Waters’
arguments at sentencing. Waters’ speculation about a
single comment that the judge made after he had
imposed the sentence is not enough to show that it
affected Waters’ sentence.
AFFIRMED.

App. 33

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
Case No. 1:16-cr-407-TCB
[Filed March 26, 2018]
___________________________________
UNITED STATES OF AMERICA
)
)
-vs)
)
ALPHONSO I. WATERS
)
___________________________________ )
Defendant’s Attorney
Paul S. Kish
JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After
November 1, 1987)
The defendant was found guilty by jury on Counts 1
and 2 of the Indictment.
Accordingly, the defendant is adjudged guilty of such
counts which involves the following offense:

App. 34
Title & Section

Nature of
Offense

Count No.

18 USC § 1343
and 2

Wire Fraud

1 and 2

The defendant is sentenced as provided in pages 2
through 6 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant shall pay the special
assessment of $200.00 which shall be due immediately.
IT IS FURTHER ORDERED that the defendant shall
notify the United States attorney for this district
within thirty days of any change of name, residence, or
mailing address until all fines, restitution, costs and
special assessments imposed by this judgment are fully
paid.
Defendant’s Soc. Sec. No. XXX-XX-5404
Defendant’s Date of Birth: 1961
Defendant’s Mailing Address:
Atlanta, Georgia 30311
Date of Imposition of Sentence: March 22, 2018
Signed this the 28th day of March, 2018.

s/____________________________________
TIMOTHY C. BATTEN, SR.
UNITED STATES DISTRICT JUDGE

App. 35
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a term of SIX (6) MONTHS as to each of Counts
1 and 2, to be served concurrently for a total of
SIX (6) MONTHS.
The Defendant shall surrender to the Bureau of
Prisons at the designated institute as notified by the
United States Marshal.
*

*

*

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of ONE (1) YEAR
as to each of Counts 1 and 2 to be served concurrently
for a total of ONE (1) YEAR.
While on supervised release, the defendant shall not
commit another federal, state or local crime and shall
not illegally possess a controlled substance. The
defendant shall comply with the standard and special
conditions that have been adopted by this court (set
forth below). If this judgment imposes a restitution
obligation, it shall be a condition of supervised release
that the defendant pay any such restitution that
remains unpaid at the commencement of the term of
supervised release. The defendant shall comply with
the following additional conditions:
The defendant shall not possess a firearm as defined in
18 USC § 921.

App. 36
The defendant shall report in person to the probation
office in the district to which the defendant is released
within 72 hours of release from the custody of the
Bureau of Prisons.
SPECIAL CONDITIONS
Pursuant to 42 USC Section 14135a(d) and 10 USC
Section 1565(d), which require mandatory DNA testing
for Federal Offenders convicted of felony offenses, the
defendant shall cooperate in the DNA collection as
directed by the probation officer.
The defendant shall not own, possess or have under his
control a firearm, dangerous weapon, or other
destructive device as defined in 18 USC § 921.
The defendant shall submit to one drug urinalysis
within 15 days after being placed on supervision and at
least two periodic tests thereafter.
The defendant shall submit to a search of his or her
person, property, house, residence, vehicle, papers
[computers (as defined in 18 U.S.C. § 1030(e)(1)), other
electronic communications or data storage devices or
media], or office, conducted by a United States
Probation Officer. Failure to submit to a search may be
grounds for revocation of release. The defendant shall
warn any other occupants that the premises may be
subject to searches pursuant to this condition. The
defendant shall permit confiscation and/or disposal of
any material considered to be contraband or any other
item which may be deemed to have evidentiary value of
violations of supervision.

App. 37
The defendant shall not incur new credit charges or
open additional lines of credit without the approval of
the probation officer and unless the defendant is in
compliance with the installment payment schedule.
The defendant shall make a full and complete
disclosure of his finances and submit to an audit of his
financial documents, at the request of the Probation
Office.
STANDARD CONDITIONS OF SUPERVISION
While the defendant is on supervised release pursuant
to this judgment, the defendant shall not commit
another federal, state or local crime. In addition:
1.

The defendant shall not leave the judicial
district without the permission of the court or
probation officer;

2.

The defendant shall report to the probation
officer as directed by the court or probation
officer and shall submit a truthful and complete
written report within the first five days of each
month;

3.

The defendant shall answer truthfully all
inquiries by the probation officer and follow the
instructions of the probation officer;

4.

The defendant shall support his or her
dependents and meet other family
responsibilities;

5.

The defendant shall work regularly at a lawful
occupation unless excused by the probation

App. 38
officer for schooling, training, or other acceptable
reasons;
6.

The defendant shall notify the probation officer
within 72 hours of any change in residence or
employment;

7.

The defendant shall refrain from the excessive
use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or
other controlled substance, or any paraphernalia
related to such substances, except as prescribed
by a physician, and shall submit to periodic
urinalysis tests as directed by the probation
officer to determine the use of any controlled
substance;

8.

The defendant shall not frequent places where
controlled substances are illegally sold, used,
distributed, or administered;

9.

The defendant shall not associate with any
persons engaged in criminal activity, and shall
not associate with any person convicted of a
felony unless granted permission to do so by the
probation officer;

10.

The defendant shall permit a probation officer to
visit him or her at any time at home or
elsewhere and shall permit confiscation of any
contraband observed in plain view by the
probation officer;

11.

The defendant shall notify the probation officer
within 72 hours of being arrested or questioned
by a law enforcement officer;

App. 39
12.

The defendant shall not enter into any
agreement to act as an informer or a special
agent of a law enforcement agency without the
permission of the court;

13.

As directed by the probation officer, the
defendant shall notify third parties of risks that
may be occasioned by the defendant’s criminal
record or personal history or characteristics, and
shall permit the probation officer to make such
notifications and to confirm the defendant’s
compliance with such notification requirement.
FINE

The defendant shall pay a fine of $9,500.00.
This fine includes any costs of incarceration and
supervision.
This fine (plus any interest required) shall be paid
immediately.
If the fine is not paid, the court may sentence this
defendant to any sentence which might have been
originally imposed. See 18 USC 3614.
The defendant shall make fine payments from any
wages he may earn in prison in accordance with the
Bureau of Prisons Financial Responsibility Program.
During the period of incarceration, the defendant shall
pay, at a minimum, the greater of $25 or 50% of the
deposits in his inmate trust account per quarter.
Any portion of the fine that is not paid in full at the
time of the defendant’s release from imprisonment,
shall become a condition of supervision and be paid at

App. 40
the monthly rate of $250 plus 25% of gross income in
excess of $2,500 per month.
The defendant shall notify the United States Attorney
for this district within 30 days of any change of mailing
or residence address that occurs while any portion of
the restitution remains unpaid.
FORFEITURE
The forfeiture of the defendant’s right, title and
interest in certain property is hereby ordered
consistent with the plea agreement. If applicable, the
United States shall submit a proposed order of
forfeiture forthwith.

App. 41

APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-11333-CC
[Filed November 19, 2019]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiff-Appellee,
)
)
versus
)
)
ALPHONSO I. WATERS, JR.,
)
)
Defendant-Appellant. )
________________________________ )
Appeal from the United States District Court
for the Northern District of Georgia
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: ED CARNES, Chief Judge, JULIE CARNES
and CLEVENGER,* Circuit Judges.

*

Honorable Raymond C. Clevenger, III, United States Circuit
Judge for the Federal Circuit, sitting by designation

App. 42
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Rehearing En Banc is
also treated as a Petition for Rehearing before the
panel and is DENIED. (FRAP 35, IOP2)
ENTERED FOR THE COURT:
s/___________________________
CHIEF JUDGE
ORD-42

App. 43

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
Criminal Action No. 1:16-CR-407-TCB
[Filed March 16, 2018]
__________________________
UNITED STATES OF AMERICA )
)
v.
)
)
ALPHONSO I. WATERS, JR.
)
__________________________ )
UNITED STATES’ SENTENCING
MEMORANDUM
The United States of America, by Byung J. Pak,
United States Attorney, and Bernita B. Malloy,
Assistant United States Attorney, and Diane C.
Schulman, Special Assistant United States Attorney
for the Northern District of Georgia, respectfully
objects to the intended loss calculation in the
Presentencing Investigative Report (“PSR”), and moves
for an upward variance pursuant to the factors listed in
18 U.S.C. § 3553(a), for a sentence of 12 months and 1
day imprisonment.

App. 44
Introduction
This case involves a scheme to defraud Colony
Capital in order to obtain a $6,000,000 loan by causing
false and fraudulent representations to be transmitted
over interstate wire. (PSR ¶ 8). On November 15, 2017,
a federal jury convicted Defendant Alphonso I. Waters,
Jr. for two counts of wire fraud, in violation of 18
U.S.C. § 1343. (PSR ¶ 5). The Defendant was found
guilty of creating and causing a fake IRS letter to be
transmitted over interstate wire in an attempt to
defraud Colony Capital into making a $6,000,000 loan.
(Id. ¶ 5). Additionally, the Defendant was found guilty
of transmitting over interstate wire a letter of
authentication swearing that the fake IRS letter was
legitimate, in furtherance of his scheme. (Id. ¶ 5).
Guidelines Calculation and Sentencing
Recommendation
As noted in the PSR, the Defendant was assessed an
eighteen-level enhancement based upon an intended
loss amount of $6,000,000. Pursuant to U.S.S.G.
§ 2B1.1(b)(1)(J), an eighteen-level enhancement applies
when “the intended loss is more than $3,500,000 but
less than $9,500,000.” The Defendant objected to this
enhancement on the grounds that there was no actual
or intended loss. According to the 2016 amendments to
the Sentencing Guidelines, specifically Amendment
792, the method of calculating intended loss was
changed to require an inquiry into the Defendant’s
subjective intent to cause a pecuniary harm. U.S.S.G.
§ 2B1.1 cmt. n.3(A)(ii).

App. 45
Specifically, the burden is on the Government to
prove not that the Defendant caused a substantial risk
of loss in the amount of $6,000,000 to Colony Capital,
but that he “purposely sought to inflict” this loss
amount. Id. Under the circumstances of this case,
where the property, which was collateral for the loan,
was appraised for $8,400,000, the Government cannot
meet its burden of presenting sufficient evidence to
show that the Defendant had the subjective intent to
never pay back the loan and purposely inflict a loss
amount of $6,000,000. The Government therefore
agrees with the defense in its objection that the loss
amount, actual or intended, is zero, and no levels
should be added for calculating the guideline range for
intended loss.
Accordingly, with a criminal history category of I
and no adjustments for acceptance of responsibility, the
resulting total offense level should be 7. This places the
Defendant in a Guidelines range of 0 to 6 months,
which falls within Zone A of the sentencing table.
However, the Government recommends that the Court
should apply an upward variance and impose a
substantively reasonable sentence of 12 months and 1
day. The Government believes that this custodial
sentence of 12 months and 1 day is necessary and
appropriate and takes into account the factors stated in
18 U.S.C. § 3553(a). In particular, the recommended
sentence reflects the nature and circumstances of the
offense, the seriousness of the offense and the need to
promote respect for the law, and the need to provide
adequate deterrence, while recognizing the history and
characteristics of the Defendant.

App. 46
Argument
1. The Court should vary upward and impose a
substantively reasonable sentence of 12
months and 1 day under 18 U.S.C. § 3553.
A district court has significant discretion in deciding
whether the factors listed in Title 18, United States
Code, Section 3553(a) justify a variance from the
applicable Guidelines’ range at sentencing, and in
deciding the extent of an appropriate variance. United
States v. Sharma, 407 F. App’x 401, 404 (11th Cir.
2011) (citing United States v. Shaw, 560 F.3d 1230,
1238 (11th Cir. 2009)). The Court must first correctly
calculate the applicable Guidelines’ range, and then it
may weigh the 3553(a) factors to determine whether a
variance is warranted. United States v. Magana, 376 F.
App’x 892, 893 (11th Cir. 2009). The factors to be
considered under 3553(a) include:
(1)

The nature and circumstances of the offense
and the history and characteristics of the
defendant; (2) the need to reflect the
seriousness of the offense, to promote respect
for the law, and to provide just punishment
for the offense; (3) the need for deterrence;
[and] (4) the need to protect the public . . . .

Id.; 18 U.S.C. § 3553(a). The weight to accord each of
the 3553(a) factors is left to the Court’s discretion.
United States v. Clay, 483 F.3d 739, 743 (11th Cir.
2007).

App. 47
A. The Nature and Circumstances of the
Offense Warrant an Upward Variance.
When looking at the nature of the Defendant’s
offense, the record reflects that the Defendant was the
sole architect of the scheme to defraud Colony in order
to obtain a $6 million loan. The Defendant initiated
and executed his fraudulent scheme to appear
creditworthy by withholding and fabricating material
information. While the offense may not have been
purely predatory in that the scheme did not solely
intend to cause loss, there was little to no limit to the
scope of the Defendant’s fraudulent actions. Most
notably, the Defendant made no effort to mitigate the
harm and instead took several calculated steps to
conceal and further the fraud to the end.
Here, the Defendant first initiated the scheme by
intentionally failing to disclose that he and his wife had
unpaid federal taxes liens totaling over $450,000 on a
Personal Financial Statement (“PFS”) he submitted to
Colony. (PSR ¶ 14).
As the evidence showed at trial, the Defendant’s
PFS left blank the lines requiring disclosure of any
unpaid income taxes or other unpaid taxes and
interests. (Doc. 54 at Ex. G14). Most notably, the line
requiring disclosure of whether there were any
outstanding liens or assets payable was marked as
zero. (Id.) Mr. Sanchez of Colony Capital testified that
the PFS is “one of the most critical aspects of how
[they] view loans” and that financial institutions expect
borrowers to be honest on these documents. (Trial TR.

App. 48
of Michael Sanchez, attached as Ex. A, at 11-14).1
Further, emails show Sanchez stating that “these are
the type of issues that are disclosed early in the process
and not revealed with a lien search during due
diligence.” (Doc. 54 at Ex. G12). Thus, the evidence
shows that the Defendant lied about material
information on his PFS.
When the federal tax liens were finally discovered,
the Defendant was given the opportunity to resolve the
issue. At trial, Mr. Sanchez testified that the
Defendant was required to either payoff the liens in
whole prior to closing, or obtain a payment plan with
the IRS. (Trial TR. of Michael Sanchez, Ex. B, at 2425). Instead of pursuing these legitimate options, on
December 16, 2013, the Defendant chose to create and
cause to be submitted a false letter from IRS claiming
that a payment plan for the tax liens had been
approved. (PSR ¶ 21). In his attempt to defraud Colony,
the Defendant created a document that would appear
legitimate by using the IRS letterhead, the seal of the
IRS Office of Chief Counsel, and the name of
Congressman Hank Johnson’s office. The Defendant
even created a paper trail by sending an email to
Congressman Johnson’s office, indicating that he
received a letter from the IRS through their assistance.
(PSR ¶ 21). The evidence reflects that, rather than
attempting to resolve the situation through legitimate
means, the Defendant took several calculated steps to
defraud Colony and cover his tracks.

1

The trial transcripts are not on the docket. For ease of reference,
they are attached as Exhibits.

App. 49
Finally, when this fake IRS letter was flagged as
potentially fraudulent, the Defendant had another
opportunity to voluntarily come clean and end his
scheme. Instead, on December 30, 2016, the Defendant
again attempted to conceal the scheme by emailing a
letter of authentication swearing that the letter was
from the IRS. (Doc. 54 at Ex. G9). As the evidence
showed at trial, Baldwin notified the Defendant that
Colony was asking for information about a “Rebecca
Langford,” the purported signator of the IRS letter.
(Doc. 47 at Ex. G6). The Defendant’s response was that
he received the letter through the efforts of
Congressman Johnson. (Id.) When Baldwin indicated
that this answer was insufficient for Colony, the
Defendant sent a letter of authentication swearing that
this letter was from Rebecca Langford from the IRS.
The evidence at trial showed that the Defendant
had multiple opportunities to pursue legitimate means,
disclose the fraud, and rectify his actions. Instead, the
Defendant continued to take calculated steps to conceal
and further his scheme. Accordingly, the nature and
circumstances of the Defendant’s offense necessitates
an upward variance.
B. The Seriousness of the Offense and Promote
Respect for the Law Warrants an Upward
Variance.
The sentencing range as calculated pursuant to
§ 2B1.1 does not fully capture the seriousness of the
Defendant’s conduct. While this offense is the
Defendant’s first offense, it is serious misconduct. The
Defendant’s conduct poses a significant risk of
disruption to our financial institutions. When a lender

App. 50
considers making a loan, the disclosure of federal tax
liens is critical to the lender’s determination of whether
a borrower is creditworthy and qualifies for the loan.
Not only did the Defendant fail to disclose his tax liens,
he took unlawful steps of fabricating a document and
representing that it was from the IRS.
During the lending process, financial institutions
rely heavily on the official documentation provided by
government agencies for material information
regarding potential borrowers. However, the
Defendant’s conduct jeopardizes the inherent
authenticity and reliability of such government
documents. If Defendant’s conduct were replicated on
a larger scale, lenders would no longer be able to rely
on documents they receive from the IRS on behalf of
borrowers. Instead, these institutions would need to
conduct lengthy investigations to determine the
authenticity of every document they receive from the
IRS, thereby creating a tremendous backlog in the
already complex, time-consuming lending process.
At trial, Sanchez testified that Colony slowed down
all other transactions they were working on and
focused solely on this loan process to accommodate the
Defendant’s timeframe (Trial TR. of Michael Sanchez,
Ex. C, at 22). Sanchez testified that he was “very, very
angry at this point” because Colony had spent a
“considerable amount of time” to accommodate the
loan. (Id. at 21). Further, Baker testified that the
discovery of the outstanding federal tax liens was
“absolutely” significant because governmental agencies
have special rights and remedies that allow them to
recover assets ahead of creditors (Trial TR. of Beau

App. 51
Baker, Ex. D, at 11). Baker testified that this was a
“major point” and the loan application could not
proceed. (Id. at 13).
Again, when instructed to resolve the issue, the
Defendant instead created a fake IRS letter confirming
an acceptable payment plan. Sanchez testified that
when he first received the false IRS letter, he did not
know it was fake and spent time working with counsel
and attorneys to understand the details of the
purportedly approved payment plan because it raised
doubts. (Trial TR. of Michael Sanchez, Ex. E, at 27).
Baker testified that the Defendant’s IRS letter seemed
suspicious, so he had to conduct independent research,
consult tax partners at his firm, reach out to the IRS
for authentication, and eventually recommend that
Colony go “pencils down” on the loan. (Trial TR. of
Beau Baker, Ex. F, at 18-24).
In this case, the fraud was detected before it was too
late. However, large-scale conduct similar to the
Defendant’s would require financial institutions to
question each and every certified government
document and conduct their own independent analysis
and request official authentication. Not only would this
impose serious costs and delays on financial
institutions, it undermines the public’s trust in the
legitimacy of the government. The public at large
implicitly trusts and heavily relies on the authority of
government documents. A document with the official
seal of the government must carry significant weight.
If there is no harsh consequence for fraudulently
creating and submitting fake government documents,

App. 52
it will send the message that this conduct is a way to
benefit without serious consequences.
C. The Need for Adequate Deterrence Warrants
an Upward Variance.
Although the Government recognizes that the
Defendant has a criminal history category of I, the
Defendant’s request for a sentence of mere probation
ignores an equally “important goal of sentencing in a
white-collar crime prosecution: the need for general
deterrence.” United States v. Kuhlman, 711 F.3d 1321,
1328 (11th Cir. 2013). The Eleventh Circuit has
recognized that “[b]ecause economic and fraud-based
crimes are more rational, cool, and calculated than
sudden crimes of passion or opportunity, these crimes
are prime candidates for general deterrence.” United
States v. Martin, 455 F.3d 1227, 1240 (11th Cir. 2006)
(internal quotation marks omitted); see also United
States v. Hayes, 762 F.3d 1300, 1311 (11th Cir. 2014)
(“[T]he threat of spending time on probation simply
does not, and cannot, provide the same level of
deterrence as can the threat of incarceration in a
federal penitentiary for a meaningful period of time.”)
The fraudulent scheme here shows the importance
of general deterrence given the Defendant’s calculated
methods and the potential ramifications of his conduct.
A sentence of probation would convey the message
“that would-be white-collar criminals stand to lose
little more than a portion of their ill-gotten gains and
practically none of their liberty.” Martin, 455 F.3d at
1240. General deterrence is particularly important in
a case such as this where there was no loss amount
because the scheme ultimately failed. However, this

App. 53
understates the gravity of the Defendant’s methods to
not only misrepresent his financial statements, but
most importantly, use the name of the IRS in
furtherance of his scheme. The sentence imposed
should send a strong message that creating fraudulent
government documents will never be tolerated. A
document with the official seal of the government must
mean something, and it is for the benefit of everyone in
our society that all government documents inherently
convey legitimacy and authority. The Defendant’s
conduct severely undermines this important public
interest. An upward variance is necessary to deter
those who may be tempted to engage in similar
conduct, and to protect the name of the IRS,
government agencies, our businesses, and our citizens.
Thus, only a sentence of at least 12 months and 1
day is sufficient to accomplish these goals in the
Defendant’s case.
Conclusion
For the reasons identified above, the Government
contends that the PSR be adjusted to exclude the
specific offense enhancement for intended loss.
Further, for the reasons stated herein, the Government
respectfully requests that the Court impose a sentence
of 12 months and 1 day imprisonment. This upward
variance is appropriate and consistent with the factors
set forth in 18 U.S.C. § 3553(a).
Respectfully submitted,
BYUNG J. PAK
United States Attorney

App. 54
/s/ BERNITA B. MALLOY
Assistant United States Attorney
Georgia Bar No. 718905
Bernita.Malloy@usdoj.gov
Certificate of Service
The United States Attorney’s Office served this
document today by filing it using the Court’s CM/ECF
system, which automatically notifies the parties and
counsel of record.
Paul Kish
March 16, 2018
/s/ BERNITA B. MALLOY
BERNITA B. MALLOY
Assistant United States Attorney

App. 55

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
CASE NO. 1:16-CR-407-01
[Filed October 31, 2017]
________________________________
UNITED STATES OF AMERICA )
)
v.
)
)
ALPHONSO I. WATERS, JR.
)
________________________________ )
REQUESTS TO CHARGE
Comes now, ALPHONSO WATERS JR., by and
through undersigned counsel, and hereby submits the
following requests to charge, numbered One through
ten. The instructions set out below are taken from the
Eleventh Circuit’s Pattern Jury Instructions, and
modified as noted.
*

*

*

Defendant’s Instruction No. 9
Difference between deceiving and defrauding
United States v. Takhalov, 827 F. 3d 1307, 1312-1313
(11th Cir. 2016)(italics in original, citation and

App. 56
internal brackets omitted)(reversing conviction for
failure to instruct on these principles)
I have just described what is needed to prove a
scheme to defraud. However, “…there is a difference
between deceiving and defrauding; to defraud, one
must intend to use deception to cause some injury; but
one can deceive without intending to harm at all… Put
another way, one who defrauds always deceives, but
one can deceive without defrauding.”
“[A] Defendant ‘schemes to defraud’ only if he
schemes to ‘deprive someone of something of value by
trick, deceit, chicane or overreaching.’ But if a
Defendant does not intend to harm the victim-to
obtain, by deceptive means, something to which the
Defendant is not entitled-then he has not intended to
defraud the victim.”
Furthermore, “…a schemer who tricks someone to
enter into a transaction has not ‘schemed to defraud’ so
long as he does not intend to harm the person he
intends to trick. And this is so even if the transaction
would not have occurred but for the trick. For if there
is no intent to harm, there can only be a scheme to
deceive, but not one to defraud.”
*

*

*

App. 57

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
No. 1 16-CR-407
[Filed November 21, 2016]
__________________________
UNITED STATES OF AMERICA )
)
v.
)
)
ALPHONSO I. WATERS, JR.
)
__________________________ )
Criminal Indictment
THE GRAND JURY CHARGES THAT:
Counts One through Two
(Wire Fraud - 18 U.S.C. § 1343)
1. From in or about October 2013 and continuing
through in or about December 2013, in the Northern
District of Georgia and elsewhere, the defendant,
ALPHONSO I. WATERS, JR. (WATERS), aided and
abetted by others known and unknown to the grand
jury, knowingly devised and intended to devise a
scheme and artifice to defraud Colony Capital
Acquisitions, LLC, also known as ColFin Decatur
Funding, LLC, (Colony), and to obtain money from
Colony by means of materially false and fraudulent

App. 58
pretenses, representations, promises, and by omissions
of material facts, well knowing and having reasons to
know that said pretenses and representations were and
would be false and fraudulent when made and caused
to be made and that said omissions were and would be
material, by causing wire communications to be made
in interstate commerce in furtherance of said scheme
and artifice to defraud, in violation of Title 18, United
States Code, Sections 1343 and 2.
Background
2. It is relevant to this Indictment that:
a. Defendant WATERS, along with his wife, Dr.
S.M.W. (“SMW”), owned and operated Family Practice
of Atlanta Medical Group, LLC (“FPOA”), a Georgia
limited liability company that operated a medical
practice in Decatur, Georgia. Defendant WATERS was
Chief Operating Officer and Chief Financial Officer of
FPOA and employed at FPOA as the manager of the
medical practice.
b. Colony was a private mortgage lending
business located in California, which finances or
refinances debt secured by an interest in real estate
and whose activities affect interstate or foreign
commerce. At all times relevant to this Indictment,
Colony was a financial institution within the meaning
of Tile 18, United States Code, Section 20 and Title 18
United States Code, Section 27.
c. Empire Realty Holdings, LLC, located in
Georgia, and Chesterfield Faring, Ltd., located in New
York were loan brokerage companies. Loan brokerage
companies act as middlemen, working with different

App. 59
types of lenders to find loans for clients. Typically, loan
brokerage companies handle communications with the
lender on behalf of their clients.
d. In addition to FPOA, Defendant WATERS and
SMW were joint owners of three other companies,
including Sondial Properties, LLC (“Sondial”), a
Georgia limited liability company.
e. In or about October 2011, Defendant WATERS
on behalf of Sondial, secured financing through
JPMorgan Chase Bank to construct a commercial
medical building in Decatur, Georgia (the “construction
project”). In or about July 2013, Defendant WATERS
renewed two promissory notes with JPMorgan Chase,
one for $1,817,997.00, with the full payment due in
October 2013, and one for $2,272,492.00, with monthly
payments scheduled to start in November 2013.
f. In or about October 2013, Defendant WATERS
sought additional funding for the construction project
in the form of a $6 million loan from Colony (the
“Colony Loan”).
g. In its dealings with Defendant WATERS
concerning the Colony Loan, Colony was represented
by M.S., of Colony, located in California, and B.B., an
attorney at the law firm of H&K, with offices located in
Florida.
h. In his dealings with Colony concerning the
Colony Loan, Defendant WATERS was represented by
intermediaries: T.B., of Empire Realty Holdings, LLC,
and J.R., J.S., and L.S., of Chesterfield Faring, Ltd.
Defendant WATERS was also represented by D.G., an

App. 60
attorney at the law firm of K&H, with offices located in
Atlanta, Georgia.
i. On or about October 30, 2013, Defendant
WATERS and SMW owed federal taxes for tax years
2007, 2008, 2009, 2010, 2011, and 2012 which they had
not paid, and were the named taxpayers in two federal
tax liens, filed in the Superior Court of Fulton County
on December 12, 2012, for the tax years 2007, 2008,
2009, and 2010 (the “federal tax liens”).
j. The Internal Revenue Service (IRS) Taxpayer
Advocate Service (TAS) is an independent organization
within the IRS that assists taxpayers with tax-related
problems. Each state has at least one local Taxpayer
Advocate. A taxpayer can request assistance by visiting
a TAS office or by calling a toll free number for TAS.
k. The IRS Collection Division has sole authority
to approve payment plans for taxpayers with
delinquent taxes. The IRS Office of the Chief Counsel
does not normally approve or participate in the process
of approving payment plans for taxpayers with
delinquent taxes.
l. At all times relevant to this Indictment, the
IRS did not have a current or former employee named
Rebecca Langford and no IRS employee was assigned
the title “District Director.”
Scheme and Artifice to Defraud
3. The object of the scheme and artifice to defraud
was for Defendant WATERS to obtain the Colony loan
by submitting false and fraudulent information in loan
documents.

App. 61
4. As part of the scheme to defraud, Defendant
WATERS, when seeking the Colony loan, made false
representations to Colony in or about October 2013, by
submitting a “Personal Financial Statement,” signed by
Defendant WATERS and SMW, in which Defendant
WATERS falsely stated that neither he nor SMW had
any unpaid taxes or liens.
5. On or about December 5, 2013, after Colony
discovered federal tax liens for tax years 2007, 2008,
2009, and 2010 naming Defendant WATERS and SMW
as the taxpayers, Defendant WATERS caused his CPA,
RP., to request the assistance of the IRS TAS office in
Atlanta, Georgia to establish a payment plan with the
IRS to resolve his and his wife’s outstanding tax
liability.
6. In furtherance of the scheme to defraud,
Defendant WATERS, on or about Friday, December 13,
2013 at 10:19 AM, caused a letter to be submitted to
the IRS by his attorney, D.G., in an attempt to expedite
approval of a payment plan for the unpaid federal tax
liens for tax years 2007, 2008, 2009, and 2010.
7. In furtherance of the scheme to defraud,
Defendant WATERS, on or about Friday, December 13,
2013 at 2:44 PM, contacted the office of his local
Congressman, H.J., to request assistance in expediting
a payment plan with the IRS for the unpaid federal tax
liens for tax years 2007, 2008, 2009, and 2010.
8. On or about Monday, December 16, 2013 at 4:18
pm, the IRS faxed to Defendant WATERS’ accountant
R.P notice that the estimated resolution date for his
TAS case was March 31, 2014.

App. 62
9. Thereafter, on Monday, December 16, 2013 at
6:23 pm, Defendant WATERS knowingly caused a false
and fraudulent letter to be faxed to Colony bearing the
signature of “Rebecca Langford,” “District Director”
and purportedly from the IRS Office of the Chief
Counsel in Washington, D.C. (the IRS letter), stating
that Defendant WATERS’ requested payment plan had
been approved.
10. In an attempt to conceal the scheme to defraud,
on or about Monday, December 16, 2013 at 6:57 PM,
Defendant WATERS sent an email to Congressman
H.J.’s office thanking the office for its assistance in
expediting approval for a payment plan with the IRS
for the unpaid federal tax liens for tax years 2007,
2008, 2009, and 2010, well knowing at the time that
the IRS letter was fake and fraudulent and that
Congressman H.J.’s office had not provided assistance
in expediting approval for his payment plan.
11. In a further attempt to conceal the scheme to
defraud, Defendant WATERS, on or about December
30, 2013, caused to be sent to Colony a letter signed by
Defendant WATERS stating that to the best of his
knowledge, the IRS letter was from Rebecca Langford,
IRS District Director, well knowing at the time that the
IRS letter was fake and fraudulent, all in an attempt to
secure the $6 million Colony loan.
Execution of the Scheme and Artifice to
Defraud
12. On or about the dates listed below in Column B,
in the Northern District of Georgia and elsewhere,
Defendant WATERS, for the purpose of executing and

App. 63
attempting to execute the aforementioned scheme and
artifice to defraud, and to obtain money and property
by means of materially false and fraudulent pretenses,
representations, promises, and by omission of material
facts, well knowing and having reason to know that
said pretenses and representations were and would be
false and fraudulent when made and caused to be made
and that said omissions were and would be material,
did with intent to defraud, cause to be transmitted in
interstate commerce by means of wire communication
as identified in Column D, certain writings, signs,
signals, pictures and sounds, namely the email
messages identified below in Column C:
Column A Column B

Count

Date

Column C

Column D

Description Interstate Wire
of Emailed Communication
Document

1

12/16/2013 The IRS
letter

2

12/30/2013 Letter of
Authorization

Email from
Defendant
WATERS in
Georgia to
recipient in
Florida
Email from
Defendant
WATERS in
Georgia to
recipient in New
York

App. 64
All in violation of title 18, United States Code, Section
1343 and 2.
FORFEITURE PROVISION
13. Upon conviction of one of more of the offenses
alleged in Counts One and Two of this indictment,
defendant, ALPHONSO I. WATERS, JR., shall forfeit
to the United States pursuant to Title 18, United
States Code, Section 982(a)(2)(A) any and all property,
real or personal, which constitutes or is derived from
proceeds traceable to the offenses alleged in Counts
One and Two of this indictment, including but not
limited to a money judgment representing the amount
of proceeds obtained as a result of the said offense.
If, as a result of any act or omission by the
defendant, any property subject to forfeiture:
a. cannot be located upon the exercise of due
diligence;
b. has been transferred or sold to, or deposited
with, a third person;
c. has been placed beyond the jurisdiction of the
Court;
d. has been substantially diminished in value; or
e. has been commingled with other property which
cannot be subdivided without difficulty;
the United States intends, pursuant to Title 21, United
States Code, Section 853(p), as incorporated by Title 18
United States Code, Section 982(b), to seek forfeiture of

App. 65
any other property of said defendant up to the value of
the forfeitable property.
A

True

BILL

s/_________________________
FOREPERSON
JOHN A. HORN
United States Attorney
s/_________________________
BERNITA B. MALLOY
Assistant United States Attorney
Georgia Bar No. 718905
s/__________________________
DIANE C. SCHULMAN
Special Assistant United States Attorney
Georgia Bar No. 497764
600 U.S. Courthouse
75 Ted Turner Drive SW
Atlanta, GA 30303
404-581-6000; Fax: 404-581-6181

App. 66

APPENDIX G
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
Criminal Action
File No. 1:16-CR-407-TCB
Atlanta, Georgia
November 13, 2017
9:30 a.m.
__________________________
United States of America
)
)
Plaintiff,
)
)
vs.
)
)
Alphonso Waters,
)
)
Defendant. )
__________________________ )
Volume 1
Pages 1 through 208
JURY TRIAL
Before The Honorable Timothy C. Batten, Sr.
United States District Judge

App. 67
APPEARANCES:
FOR THE GOVERNMENT: Bernita Malloy
Diane C. Schulman
Assistant U.S. Attorney
FOR THE DEFENDANT:

Paul Kish
Attorney at Law

Lori Burgess, Official Court Reporter
(404) 215-1528
Proceedings recorded by mechanical stenography,
transcript produced by CAT.
[p.2]
INDEX OF EXAMINATIONS
Witness Name
Page
Charles Schottler
Direct By MS. SCHULMAN. . . . . . . . . . . . . . . . 84
Cross By MR. KISH . . . . . . . . . . . . . . . . . . . . . . 93
Redirect By MS. SCHULMAN . . . . . . . . . . . . . . 98
Anthony Baldwin
Direct By MS. SCHULMAN. . . . . . . . . . . . . . . . 99
Cross By MR. KISH . . . . . . . . . . . . . . . . . . . . . 120
Redirect By MS. SCHULMAN . . . . . . . . . . . . . 158
Beau Baker
Direct By MS. MALLOY. . . . . . . . . . . . . . . . . . 167
Cross By MR. KISH . . . . . . . . . . . . . . . . . . . . . 189
Redirect By MS. MALLOY . . . . . . . . . . . . . . . . 204
*

*

*

App. 68
[p.175]
how to get that creditor paid off at closing or get some
type of pay-off plan set up so that you can get comfort
that if your lender lends the money, that creditor is not
going to be coming after your borrower or the
guarantor later on.
Q. Now as attorney for Colony, I am going to ask you,
was discovery of these outstanding federal tax liens
significant?
A. Absolutely.
Q. And tell the jury why.
A. Most importantly, if there is a creditor out there,
especially a super creditor like the Internal Revenue
Service, that creditor could come after your borrower
later on or come after the guarantor, and that could put
the payment stream that is coming to my client in
jeopardy.
Q. And your client again was Colony?
A. Yes. My client was Colony Capital.
Q. And why did you say the IRS was a super creditor?
What do you mean by that, sir?
A. As a governmental or quasi-governmental entity,
they have special rights and remedies that allow them
to more aggressively get at assets, and there is things
that they can do that a lot of other creditors cannot.

App. 69
Q. Okay. Now sir, as part of this loan process, were
there any other parties that you were aware of that
was involved in this deal?
*

*

*

App. 70
[p.209]
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
Criminal Action
File No. 1:16-CR-407-TCB
Atlanta, Georgia
November 14, 2017
9:00 a.m.
__________________________
United States of America
)
)
Plaintiff,
)
)
vs.
)
)
Alphonso Waters,
)
)
Defendant. )
__________________________ )
Volume 2
Pages 209 through 487
JURY TRIAL
Before The Honorable Timothy C. Batten, Sr.
United States District Judge

App. 71
APPEARANCES:
FOR THE GOVERNMENT: Bernita Malloy
Diane C. Schulman
Assistant U.S. Attorney
FOR THE DEFENDANT:

Paul Kish
Attorney at Law

Lori Burgess, Official Court Reporter
(404) 215-1528
Proceedings recorded by mechanical stenography,
transcript produced by CAT.
*

*

*

[p.227]
because -- first off, there is a Rule 16 objection. I never
received this information before.
MS. SCHULMAN: Your Honor, he raised it
yesterday.
THE COURT: Yeah. I will overrule all of the
objections.
(End of bench conference).
BY MS. SCHULMAN:
Q. Just briefly, the defendant -- you testified that the
defendant paid a deposit of approximately $20,000, and
you actually expended more than that; is that correct?
A. That is correct.

App. 72
Q. Okay. Now, after the term sheet was signed and the
expense deposit was paid, what happened next?
A. We began to collect information in three categories.
We collected information with respect to the property,
information with respect to the legal aspects or the title
aspects of the property.
Q. Is this referred to as the due diligence period?
A. Yes. Due diligence. Yes.
Q. During the due diligence period did you find out
there were liens against the property?
A. Yes, we did.
Q. Do you know when you found that out?
A. We found this out within the first ten, fifteen
business days of the transaction.
[p.228]
Q. I think I misstated that. Did you find out there were
tax liens filed against the defendant and his wife?
A. Yes.
Q. Now, at some point did you go to visit the property?
A. I did.
Q. Was that before or after you found out about the
liens?
A. This was well before.
Q. Do you recall when you found out about the liens?

App. 73
A. We -- our firm ran background searches sometime
within the first or second week of our due diligence
process.
Q. I would like to show you what has been marked as
Defense Exhibit 2-C. Could you publish that? Do you
recognize that document?
A. I do.
Q. What is it?
A. It is essentially an outline of the amount of liens
that were outstanding and payable by Sondi and Al
Waters.
Q. When did you receive this?
A. I received this approximately sometime in the third
week of November.
Q. Of 2013?
A. Of 2013. Yes.
Q. Now turning to page 12 on that document, at the
bottom, next page, the very last row. What does that
indicate?
A. The federal tax lien?
[p.229]
Q. Yes.
A. Yes.
Q. Is that the first time that you found out about the
federal tax liens?

App. 74
A. Yes.
Q. What does it list as the years?
A. The years going back to 2007, 2008, and 2009.
Q. How much was owed in 2007 for 2007 taxes?
A. $32,917.77.
Q. What type of taxes were those?
A. Those were federal income taxes.
Q. What about 2008?
A. $37,109.61.
Q. And how about 2009?
A. 68,111.60.
Q. Let’s turn to page 13, the top of page 13. What is
listed as the lien on the very first row?
A. For tax year 2010, that was at $328,656.
Q. You testified this is first time that you learned
about these liens was on November 21st of 2013?
A. That is correct.
Q. And when you found out about those liens how did
you react?
A. I was very very angry at this point. We had spent a
considerable amount of time, you know, dropping what
we were
*

*

*

App. 75
[p.233]
are going to get, you know, financial statements that
are, you know, truthful. Whether it’s their personal
financial statements or financial statements at the
property. So it brought into question, you know, the
borrower’s ability to, you know, properly reflect and
report information to us.
Q. So what action did you require from the defendant
in order to proceed with this loan after you discovered
these tax liens?
A. We essentially slowed down or even stopped our due
diligence until we received resolution upon this, and
there were at the time a couple of ideas that were being
floated around including, you know, the payment of
them -- the payoff of these liens in whole prior to close,
or some sort of, you know, payment plan with the IRS.
Q. And what time period are we talking about right
now? When was this?
A. It was all transpiring the end of November and
early December -Q. Okay.
A. -- of 2013.
Q. So after you discovered the tax liens, were you
continuing to proceed with closing?
A. No. We may have worked on finalizing some due
diligence aspects, but we were not prepared to take this
to final committee for approval until we resolved this
issue. There

App. 76
[p.234]
was the gating issue for us to get to loan approval.
Q. Did there come a time when you learned that
Waters had provided some kind of letter that said he
had a payment plan in place?
A. Yes. My understanding that there is a payment plan
that had been approved and we were just waiting for
documentation. And we, you know, continued to wait
for some sort of document to be sent over to us.
Q. When was that?
A. This document we received sometime in late
December or early January.
Q. Okay. And was the letter sufficient to allow Colony
to proceed with the loan?
A. No. It lacked the amount of details that we were
looking for. I believe that this letter indicated that
something had been approved, but it would be another
90 days before details of a payment plan would have,
you know, been delivered to Mr. Waters.
Q. Did you communicate your concerns about the letter
to Beau Baker?
A. I did.
Q. Did you communicate your concerns about the letter
to anyone else?
A. Yes. I delivered, you know, my -- I communicated
my displeasure with the lack of details to the broker

App. 77
*

*

*

[p.241]
close to approving this loan for closing.
Q. Did Waters ever resolve the tax issues to Colony’s
satisfaction?
A. No.
Q. And ultimately did Colony loan Waters the money?
A. We did not.
Q. Why not?
A. We were informed by our counsel that -MR. KISH: Judge, I object to hearsay of anything
that someone else says.
BY MS. SCHULMAN:
Q. Why did Colony decide not, without mentioning
what somebody else told you, why did Colony not move
forward with the loan?
A. We learned that the letter had been fabricated.
Q. After you learned that the letter was fabricated, was
there any chance that you would still have loaned
Waters the money?
A. Absolutely not.
Q. Why not?

App. 78
A. We were not prepared to move forward with any
loan that involved any amount of fraud whether, you
know, at any level, property level or borrower level.
Q. And who had the ultimate decision-making
authority to move forward with this loan?
*

*

*

[p.259]
You have seen this before, haven’t you?
A. I have.
Q. And again, this requires the borrower to provide
audited annual income statements to your firm;
correct?
A. That is correct.
Q. And what that means is an outside accountant goes
in, looks at the business records of this business, and
the outside accountant who has no connection to the
borrower has to give that outside accountant’s own sort
of blessing that the books look like they haven’t been
cooked, or more something like that; right?
A. Yeah. Had we closed this loan, we would require
those documents.
Q. Okay. Cash management, the lock box, you have
seen this before, haven’t you?
A. I have.
Q. And what this means is if somebody borrows money
from Colony under this term sheet, that the borrowers,

App. 79
when they make money, they don’t get to keep it, it
goes into an account that Colony has access to; right?
A. Well, to describe it in more detail, a lock box is
designed for tenants to pay rents directly into an
account at which time there would be a loan servicer,
someone who would handle the accounts, and they
would essentially distribute the dollars, and there was
a priority of
[p.260]
distribution. So the first thing, they would make sure
that the tax escrows had enough money, and the
insurance escrows, and then there would be money for
the debt service, that there would be money for the
operating expenses, and anything in excess of that
would then be sent over to the borrower for, you know,
whatever use that they needed, unless there was a
particular provision -- and I would have to look
specifically if there was a provision that would hold
those into an account for future use, but I don’t believe
this term sheet had that.
Q. Colony got paid first; right?
A. Okay. We are the lender.
Q. Because the lender is preeminent in your book
because you have an obligation to your own directors to
make sure that the deal is in the best interests of your
company; right?
A. That is correct. And the lock box and cash
management is pretty typical for loans that are

App. 80
transitional in nature and, two, are non-recourse, are
mostly non-recourse.
Q. Okay. You came to Atlanta and visited the property;
correct?
A. Correct.
Q. And you met there with Mr. Waters? True?
A. That is correct.
Q. You met there with a man named Tony Baldwin, a
broker?
*

*

*

[p.279]
Q. Now can you tell the jury what type of loan Mr.
Waters wanted?
A. He needed a loan called a transitional loan, which
is a loan where you have a property that is going under
transition. He had a building that was two-thirds or
three-quarters completed, it was under construction.
He had a loan with Chase at the time, and Chase was
basically saying we not going to lend you any more
money to finish the property, so we had to find a lender
that was willing to give him the money to finish the
project and lease it up and make it a viable project.
Q. Can you tell the jury what the amount of that loan
was for, for Mr. Waters?
A. Something over six million dollars, the loan were we
getting.

App. 81
Q. Pardon me?
A. The loan we were getting. The one for chase was
less.
Q. Okay. Now I believe you testified just a minute ago
that your firm normally deals with loan amounts
somewhere between fifteen and twenty thousand. Why
did you agree to take six million dollar loan?
A. That is fifteen to twenty million.
Q. Fifteen to twenty million.
A. Right. A variety of reasons. One is, ironically the
attorneys that were representing Al were attorneys
that we
*

*

*

[p.283]
A. Yes. Someone in my office processed the loan and he
worked on it day to day.
Q. Okay. And would your firm Chesterfield do any due
diligence?
A. Yes. We would do preliminary due diligence. But
there is certain due diligence only the lender will do, so
we don’t duplicate it. Now that would be like a title
search or credit reports, those are two things we don’t
do. But we do all the market research, we do all the
market analysis. And they piggyback, so to speak, on
our work, and it makes their work easier if we do it in
advance for them.

App. 82
Q. Just to be clear, Colony is not your client. Is that
correct?
A. No.
Q. Okay. Now did you do any -THE COURT: Wait a minute. You asked him is that
not correct and he said no.
THE WITNESS: Colony is not my client.
THE COURT: Thank you, Mr. Selevan.
MS. MALLOY: Thank you, Your Honor.
BY MS. MALLOY:
Q. Did you perform any due diligence?
A. We did. Yes.
Q. And what if anything did you find during your due
diligence?
[p.284]
A. We found that the office rents that A1 projected
were accurate. We found out that the demographics
and the market supported an medical office building in
this location. We -- our guys identified the location,
along with Tony Baldwin, saying that the location was
a good location, and that the only thing lacking was
capital really to get this project moving and successful.
Q. Okay. And at some point did you -- were you aware
that there was some outstanding tax liens?

App. 83
A. We became aware of it after Colony came back to us
and said that they had done their credit and title
report.
Q. Can you tell the jury the time frame, the best that
you recall?
A. Early December.
Q. Okay. And what effect, if any, did it have on the
loan process?
A. Well at the time this became knowledge to us, I
wasn’t really very involved in the loan day to day. We
had our loan processor doing that, but the moment the
tax lien came up they immediately brought it to my
attention because they wanted me to come up with -- in
my own office, they wanted me to come up with
solutions for the borrower so we can go forward with
the closing.
Q. Okay. And what if anything -- did you come up with
a solution, sir?
*

*

*

[p.290]
corrected me later.
Q. When you received this email, where were you, if
you recall? Where was your office located?
A. 415 Madison Avenue.
Q. Now turning to the last page of the letter?

App. 84
MS. MALLOY: Turn to the second page of that same
exhibit, Ms. McIntosh.
BY MS. MALLOY:
Q. What is the date of this letter?
A. December 16, 2013.
Q. No. The letter now that is on the screen.
A. Is that the same letter? Oh, the second one. Sorry.
Q. The second page. Sorry, sir.
A. December 30th.
Q. And I am going to ask you, looking at this letter,
what is in this section that says “re”?
A. IRS letter.
Q. And whose name or signature appears on this
letter?
A. A1 Waters.
Q. Can you read the body of that letter, sir?
A. Sure. “To whom it may concern, To the best of my
knowledge in the letter from Rebecca Langford IRS
District Director and dated December 16, 2013 with the
subject matter partial payment installment agreement
is from Rebecca Langford IRS District Director. A copy
of the letter is
[p.291]
attached to this email. Thank you.”

App. 85
Q. Now, Mr. Selevan, after you received this letter
from Mr. Waters, did this resolve the issue that Colony
Capital had regarding the letter?
A. We forwarded -- I don’t think it did resolve it. No.
Q. Why do you say that?
A. One, they didn’t make the loan. But more
importantly, I guess I am going to get -- because Colony
told us that.
MR. KISH: Judge, again, I object based on hearsay.
Thank you, Mr. Selevan.
THE WITNESS: I knew you were going to do that.
BY MS. MALLOY:
Q. So Mr. Selevan, now sir, at some point did you learn
that the IRS letter was not authentic, it was fake?
A. Yes.
Q. And what time frame? When did you learn that?
A. Ironically I was at what is called the Mortgage
Banker’s Association Conference in Orlando, and the
guy who was running this deal for me, Jordan
Roerschlab, was there along with Mike Sanchez of
Colony, along with Beau Baker from the law firm, we
were all at the same conference, and that is when I was
informed.
Q. And what date was that? Do you recall?
A. Early February.

App. 86
Q. Of what year?
*

*

*

App. 87
[p.488]
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
Criminal Action
File No. 1:16-CR-407-TCB
Atlanta, Georgia
November 14, 2017
9:00 a.m.
__________________________
United States of America
)
)
Plaintiff,
)
)
vs.
)
)
Alphonso Waters,
)
)
Defendant. )
__________________________ )
Volume 3
Pages 488 through 627
JURY TRIAL
Before The Honorable Timothy C. Batten, Sr.
United States District Judge

App. 88
APPEARANCES:
FOR THE GOVERNMENT: Bernita Malloy
Diane C. Schulman
Assistant U.S. Attorney
FOR THE DEFENDANT:

Paul Kish
Attorney at Law

Lori Burgess, Official Court Reporter
(404) 215-1528
Proceedings recorded by mechanical stenography,
transcript produced by CAT.
*

*

*

[p.490]
THE COURT: Good morning. What proposed
changes does the government have to the Court’s
instructions to the jury?
MS. SCHULMAN: I do have a few things, Your
Honor. On the Court’s instruction about knowing and
willfully generally.
THE COURT: What page is that?
MS. SCHULMAN: On page 9. Specifically on the top
of page 10, the definition of willfully, this is actually
the instruction 91-B in the patent instructions, and
that’s a specific instruction that deals with like tax
cases, and the appropriate instruction should be 91-A.
THE COURT: Thank you. We will go to the
defendant.

App. 89
MS. SCHULMAN: That would be it from the
government.
THE COURT: Great. Thank you. It really is nothing
else. Okay. Mr. Kish? Hearing nothing, thank you, Mr.
Kish. We will move on.
MR. KISH: No. No. Not so fast, thank you very
much. Defense instruction No. 9, I would submit, needs
to be included. I believe that this case is obviously
different factually than United States versus Takhalov,
but in principle they are paralegal one to the other. I
believe that this jury could easily determine that to use
the words in the Takhalov decision, the buyer here -the lender got exactly what they were getting, they
were paying for. They were just deceived
*

*

*

[p.492]
THE COURT: Part of the fraud?
MS. SCHULMAN: Sort of the beginning of the
scheme to defraud is he lied on his personal financial
statement, and then when that was uncovered, he then
submitted this false letter, and then when that was
questioned he submitted a second false statement. So
that’s all a part of the scheme to defraud. But for the
defense counsel to suggest that this wasn’t the essence
of the bargain, that the line about the defendant’s
creditworthiness wasn’t the essence of the bargain to
try to get a $6 million loan, it is absolutely the essence
of the bargain. He absolutely was defrauding Colony
into thinking he was entitled to this loan. So I don’t see

App. 90
how Takhalov applies at all. This is a straightforward
scheme to defraud.
Now if the court is inclined to give the Takhalov
instruction, we would have an additional instruction
that we would ask for.
THE COURT: And what would that be?
MS. SCHULMAN: This is language from Takhalov
that states: The scheme to defraud, as that phrase is
used in the wire fraud statute, reference only to those
schemes in which a defendant lies about the nature of
the bargain itself. That lie can take two primary forms.
The defendant might lie about the price, for example, if
he promises that goods cost $10 when in fact it cost $20,
or he might lie about the
[p.493]
characteristics of a good, for example, if he promises
that a gem stone is a diamond when it is in fact a cubic
zirconia -- and I think that would be the applicable
analogy here -- in each case the defendant has lied
about the nature of the bargain and thus, in both cases,
the defendant has committed wire fraud. But if
defendant lies about something else, for example, if he
says that he is a long lost cousin of a prospective buyer,
then he has not lied about nature of the bargain and
cannot be convicted of wire fraud. That would seem to
be more applicable if we give the Takhalov instruction,
which we don’t think is appropriate in the first place.
THE COURT: I am not inclined to give it, but if I
did give it I would add the government’s instruction.
How would you feel about that, Mr. Kish?

App. 91
MR. KISH: Having never heard this until this
moment, the government’s instruction, I would need to
look at it. But my thinking is that the reason I
structured my instruction in the manner in which I did
was because it is the essence of the decision, it is what
the Court said the rule of law was. All of these
examples -THE COURT: Read the instruction again, the
proposed defendant’s instruction?
MR. KISH: I have just described what is needed to
prove a scheme to defraud; however, quote, there is a
[p.494]
difference between deceiving and defrauding. To
defraud, highlighted, one must intend to use deception
to cause some injury. But one can deceive, highlighted,
without intending to harm at all. Put another way, one
who defrauds always deceives, but one can deceive
without defrauding. A defendant schemes to defraud
only if he schemes to deprive someone of something of
value by trick, deceit, chicane, or over-reaching.
THE COURT: Don’t forget chicane.
MR. KISH: But if a defendant does not intend to
harm the victim to obtain by deceptive means something
to which the defendant is not entitled, then he has not
intended to defraud the victim. Furthermore, a schemer
who tricks someone into a transaction has not schemed
to defraud so long as he does not intend to harm the
person he intends to trick. And this is so, even if the
transaction would not have occurred but for the trick.

App. 92
For if there is no intent to harm, there can only be a
scheme to deceive, but not one to defraud.
THE COURT: I think that is overly confusing, and
the subject is adequately covered by the charge as
given now. So I respectfully overrule the defendant’s
request for inclusion of his proposed charge no. 9.
MR. KISH: Yes, sir.
THE COURT: Anything else, Mr. Kish, that you
would
*

*

*

[p.598]
to prove that the false representations that the
defendant made was about a material fact. Ladies and
gentlemen, the Judge will also instruct you that a
material fact is an important fact that a reasonable
person would use to decide whether or not to do
something. You heard Mr. Sanchez from Colony. He
testified that the failure to disclose these tax liens was
material. It was a deal killer. It was material because
it caused Colony not to have the ability to properly
evaluate the defendant’s creditworthiness. So ladies
and gentlemen, we have satisfied element two.
Let’s go to the third element. We have to prove that
the defendant acted with the intent to defraud. We
know this was all intentional. We know that he was
aware of his tax liens, but he knowingly failed to
disclose them. We know that when the tax liens were
found by Colony, he then created a fake letter
intentionally to deceive Colony that he was

App. 93
creditworthy of receiving a $6 million loan. When
questioned about whether the letter was legit, he sent
Chesterfield and the congressman’s office fraudulent
emails to deceive, to make it appear that the letter was
legit. Ladies and gentlemen, element three is satisfied.
The last element, ladies and gentlemen, which is
wire communications, namely in this case the two
emails that was done and sent in furtherance of the
scheme. We charged two wire fraud counts. Count 1 is
the fake letter that we
*

*

*

[p.619]
statement or representation may be false or fraudulent
when it is a half truth, or effectively conceals a
material fact, and is made with the intent to defraud.
A material fact is an important fact that a
reasonable person would use to decide whether to do or
not do something. A fact is material if it has the
capacity or natural tendency to influence a person’s
decision. It doesn’t matter whether the decision maker
actually relied on the statement or knew or should
have known that the statement was false; however, not
all misrepresentations or omissions constitute a
scheme to defraud. The misrepresentation or omission
must be material, and it must be one on which a person
of ordinary prudence would rely.
The intent to defraud is the specific intent to
deceive or cheat someone, usually for personal financial
gain or to cause financial loss to someone else. To prove
intent, the government must establish that the

App. 94
defendant believed that the supposed victim would act
or refrain from acting in reliance upon that
representation. The government does not have to prove
all of the details alleged in the indictment about the
precise nature and purpose of the scheme. It also
doesn’t have to prove that the material transmitted by
interstate wire was itself false or fraudulent, or that
using the wire was intended as the specific or exclusive
means of carrying out the alleged fraud, or that the
defendant
*

*

*

App. 95

APPENDIX H
18 U.S.C. § 1341. Frauds and swindles
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining money or
property by means of false or fraudulent pretenses,
representations, or promises, or to sell, dispose of, loan,
exchange, alter, give away, distribute, supply, or
furnish or procure for unlawful use any counterfeit or
spurious coin, obligation, security, or other article, or
anything represented to be or intimated or held out to
be such counterfeit or spurious article, for the purpose
of executing such scheme or artifice or attempting so to
do, places in any post office or authorized depository for
mail matter, any matter or thing whatever to be sent or
delivered by the Postal Service, or deposits or causes to
be deposited any matter or thing whatever to be sent or
delivered by any private or commercial interstate
carrier, or takes or receives therefrom, any such matter
or thing, or knowingly causes to be delivered by mail or
such carrier according to the direction thereon, or at
the place at which it is directed to be delivered by the
person to whom it is addressed, any such matter or
thing, shall be fined under this title or imprisoned not
more than 20 years, or both. If the violation occurs in
relation to, or involving any benefit authorized,
transported, transmitted, transferred, disbursed, or
paid in connection with, a presidentially declared major
disaster or emergency (as those terms are defined in
section 102 of the Robert T. Stafford Disaster Relief
and Emergency Assistance Act (42 U.S.C. 5122)), or

App. 96
affects a financial institution, such person shall be
fined not more than $1,000,000 or imprisoned not more
than 30 years, or both.
18 U.S.C. § 1343. Fraud by wire, radio, or
television
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining money or
property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to be
transmitted by means of wire, radio, or television
communication in interstate or foreign commerce, any
writings, signs, signals, pictures, or sounds for the
purpose of executing such scheme or artifice, shall be
fined under this title or imprisoned not more than 20
years, or both. If the violation occurs in relation to, or
involving any benefit authorized, transported,
transmitted, transferred, disbursed, or paid in
connection with, a presidentially declared major
disaster or emergency (as those terms are defined in
section 102 of the Robert T. Stafford Disaster Relief
and Emergency Assistance Act (42 U.S.C. 5122)), or
affects a financial institution, such person shall be
fined not more than $1,000,000 or imprisoned not more
than 30 years, or both.
18 U.S.C. § 1344. Bank fraud
Whoever knowingly executes, or attempts to execute, a
scheme or artifice—
(1) to defraud a financial institution; or

App. 97
(2) to obtain any of the moneys, funds, credits,
assets, securities, or other property owned by, or
under the custody or control of, a financial
institution, by means of false or fraudulent
pretenses, representations, or promises;
shall be fined not more than $1,000,000 or imprisoned
not more than 30 years, or both.

App. 98

APPENDIX I
Defendant’s
Exhibit 3-A
Colony Capital Acquisitions, LLC
October 25, 2013
Mr. Jordan Roeschlaub
Chesterfield Faring, Ltd
415 Madison Avenue, 7th Floor
New York, NY 10017
Re:

Medical Centers of Georgia
$6.0 Million Financing Proposal

Dear Jordan:
Colony Capital Acquisitions, LLC and its successors
and assigns (“Lender”) is pleased to present this Loan
proposal (the “Loan Proposal”) to fund a Loan (the
“Loan”) secured by a medical office building located in
Decatur, GA (the “Property”). As further set forth
below, this Loan Proposal is for discussion purposes
only and is neither an expressed nor implied
commitment to provide any financing or to provide or
purchase any loans or securities in connection with the
transactions contemplated hereby.
Sponsor:

Sondial Properties, LLC, Dr. Sondi
Moore-Waters, Alphonso Waters,
Family Practice of Georgia, Nexus

App. 99
Laboratories & Sondial Pharmacy,
LLC (collectively, the “Sponsor”)
Borrower:

The Borrower shall be Sondial
Properties, LLC or a single
purpose, bankruptcy-remote entity
acceptable to Lender and organized
in the state of Delaware.

Loan Amount:

Subject to Due Diligence, as
described below, the loan amount
shall be $6.0 million.

Collateral:

Lender reserves the right to
allocate a portion of the Loan as
Mezzanine Debt in its sole
discretion. The mortgage
component of the Loan shall be
secured by, among other things,
(a) a first priority mortgage/deed of
trust on the Property; (b) a first
priority blanket assignment of all
leases and rents with respect to
the Property, including
appropriate cash management
arrangements.
The mezzanine loan component of
the Loan, if any, shall be secured
by, among other things, a pledge of
equity interests in the Mortgage
Borrower.

App. 100
Recourse:

The Loan shall be made on a
recourse basis to Sponsor, limited
to $1,500,000, and fully recourse to
Sponsor for environmental matters
and standard “bad acts”, including
(but not limited to) fraud,
bankruptcy, misrepresentation,
waste, misappropriation, transfers,
liens and material breach of SPE
covenants.

Interest Rate:

Mortgage Loan: 1 Mo LIBOR +
7.00% (Act/360) (“Contract Rate”).

Term:

The Loan shall consist of a two (2)
year initial Term (the “Initial
Term”) and one (1) one-year
extension option, exercisable, so
long as no default or event of
default is then in existence, upon
(a) payment of a 50 basis point
extension fee (b) purchase & pledge
of a replacement Interest Rate
Cap, (c) satisfaction of minimum
Debt Yield teats (the “Extension
Debt Yield Tests”) as follows:
1st Extension: 10.0%
As used throughout this Loan
Proposal, “Debt Yield” shall be
calculated as the ratio of trailing
twelve (12) month annualized Net
Cash Flow (as defined below) over

App. 101
the aggregate outstanding Loan
Amount. For purposes of this
provision, the Debt Yield tests
must be satisfied for the two
consecutive quarters immediately
preceding each extension period.
“Net Cash Flow” shall be defined
as net operating income less an
underwritten capital expenditure
and leasing reserve adjustment to
be determined during diligence.
For purposes of the Debt Yield
calculation, net operating income
shall (a) exclude any income
associated with leases projected to
roll within 12 months of the
calculation date, and (b) include
any income associated with
executed leases projected to
resume within 3 months of the
calculation date provided such
lease has a minimum term of 36
months.
Amortization:

Interest-only

Structuring Fee: 1.00%, earned and payable at the
closing of the Loan.
Exit Fee:

1.00%, payable at repayment of the
Loan.

App. 102
Call Protection: The Loan may be prepaid in full
during the first two years of its
term through yield maintenance,
as more fully set forth in the
Lenders loan documents, through
the end of the accrual period.
Thereafter, Borrower may freely
prepay the Loan in full at par
subject to the Exit Fee as described
above.
Interest Rate
Cap:

Borrower shall be required to
purchase and pledge to Lender an
interest rate cap from a
counterparty with a minimum “A”
credit rating from Standard &
Poor’s, hedging the Loan Amount
by capping its LIBOR exposure
such that Lender’s underwritten
Net Cash Flow generates a
breakeven DSCR, assuming
LIBOR at the capped rate, of at
least 1.0x.

Lender Approval The Loan Documents shall give
Rights:
Lender the right to reasonably
approve, from time to time,
(i) annual operating & capital
budgets for the Property,
(ii) material contracts with third
parties not in the ordinary course
or business or not provided for in
the approved operating or capital

App. 103
budgets, (iii) any change in
ownership or control of Borrower,
(iv) any encumbrance of the
Property, (v) any sale or material
lease not contemplated in the
annual operating or capital
budgets approved by Lender
(vi) the initiation of any material
litigation or the settlement of any
dispute or litigation not covered by
insurance or which is material and
not in the ordinary course of
business, (vii) any material
modifications to renovation plans,
and (viii) other material matters to
be identified in the Loan
Documents (collectively, the
“Lender Approval Submissions”).
Financial
Reporting:

The Loan Documents will require
Borrower to provide Lender with
unaudited monthly (within 30 days
of end of period) and quarterly and
audited annual income statements,
balance sheets, rent rolls, aged
accounts receivable reports,
leasing pipeline, and annual
budgets (collectively, the
“Financial Statements”). The
annual Income statement and
balance sheets shall be audited by
an accounting firm acceptable to
Lender. All Financial Statements

App. 104
shall be certified true and correct
by the Chief Financial Officer of
Sponsor. Failure to provide
financial statements shall be a
default under the Loan
Documents.
Cash
Management:

All cash and credit card collections
shall be paid directly to a lockbox
account (the “Lockbox Account”)
under Lender’s control, from which
debt service shall be paid. The
Lockbox Account shall include a
working capital sub-account which
shall be funded each month in an
amount sufficient to cover working
capital needs pursuant to the
annual budget, aa amended from
time to time, as necessary.

Escrows &
Reserves:

Borrower shall establish and fund
escrows & reserves, at Closing and
on an ongoing basis, for taxes,
insurance premiums by Lender
following Due Diligence. Lender, at
Closing, shall fund $1,850,000 of
its Loan funding, into a Lendercontrolled account of which
$1,650,000 shall be held for future
leasing costs (the “Leasing
Reserve”) and $200,000 shall be
held for interest carry (the
“Interest Reserve”). Additionally,

App. 105
All such escrows & reserves shall
be held in interest-bearing
accounts, with interest accruing for
Borrower’s benefit. Such accounts,
in which Lender will have a
perfected security interest, will
serve as additional collateral for
the Loan.
Dividend
Restrictions:

Borrower shall not make cash
distributions to Sponsor until the
Property has achieved a minimum
10.0% Debt Yield for two
consecutive quarters (the
“Dividend Threshold”). In the
event the Property subsequently
fails to satisfy the Dividend
Threshold in any quarter, such
dividends shall be prohibited and
cash in excess of operating
expenses, approved capital costs
and debt service shall be held in
the Lockbox Account as additional
collateral for the Loan. Lender will
allow Borrower flexibility to utilize
cash accumulated in the Lockbox
Account (after interest expense
and required Reserves) to fund
approved operating expenses and
capital expenditures.

Management
Agreement:

The Property must at all times be
managed by a manager approved

App. 106
by Lender pursuant to a
management agreement in form
and substance satisfactory to
Le n d e r . T h e m a n a ge m e nt
agreement shall be fully
subordinated to the Loan and
management fees shall be
subordinated to payment of the
Loan interest expense. Lender
shall have the right to terminate at
no cost and replace the property
manager subsequent to an event of
default under the Loan. Borrower
shall not make any material
modifications to the management
agreement without Lender
consent.
Additional
Indebtedness:

No additional mortgage debt or
partnership interest debt shall be
permitted without the prior
written approval of Lender in its
sole and absolute discretion.

Transfers:

Sponsor may not sell, transfer or
assign any of its equity interests in
Borrower without the consent of
Lender, in its sole discretion,
provided that Lender shall allow
for transfers in connection with
(i) estate planning and
(ii) transfers made to affiliates that
satisfy minimum capitalization

App. 107
requirements. Further, Sponsor
may transfer up to 49% of its
economic interests without Lender
consent, provided Sponsor
maintains voting control.
Insurance
Requirements:

Borrower shall maintain (a) “all
risk” hazard insurance in an
amount equal to full replacement
cost of the Property, (b) liability
insurance in an amount
satisfactory to Lender, (c) business
interruption / rental loss insurance
in an amount equal to 12- months
gross revenues, (d) seismic
insurance for all Property located
in a Zone 1 or 2 seismic area,
(e) flood insurance for all Property
located in a flood hazard zone, and
(f) such other insurance as may be
reasonably required by Lender. All
policies shall be from providers
with minimum claims paying
ratings acceptable to Lender,
which policies must name Lender
as additional insured.

Due Diligence:

Prior to closing, Lender shall
satisfy itself, in its sole and
absolute discretion, with respect to
all due diligence items (collectively,
“Due Diligence”) including, but not
limited to, (i) the financial

App. 108
condition and reputation of
Borrower and Sponsor, and (ii) the
feasibility, viability and quality of
the Property, including but not
limited to a satisfactory review of
the prior three years’ historical
audited financial statements,
relevant budgets, leases, appraisal,
environmental database search
(including, If necessary, phase one
and phase two environmental
reports), architectural and
engineering reports, seismic
report, title report, survey, title
insurance policy, and all other
insurance policies and/or other
reports as reasonably deemed
necessary by Lender. Lender shall
determine if the results of Due
Diligence shall be satisfactory in
its sole discretion.
Conditions
Precedent to
Funding:

Among other things, in Lender’s
sole and absolute discretion;
(i) approval of Lender’s investment
committee; (ii) satisfactory
completion of Due Diligence and
other conditions described herein;
(iii) satisfactory opinions of counsel
including non-consolidation and
customary corporate and
enforceability opinions;
(iv) accuracy of representations

App. 109
and warranties; (v) satisfactory
review of Sponsor’s net worth and
liquidity; (vi) satisfactory review
and approval of Sponsor’s business
plans (vii) satisfactory review and
approval of management
agreements; (viii) confirmation of
Mortgage and/or Mezzanine
Borrower’s purchase and pledge to
Lender of an acceptable Interest
Rate Cap; (ix) Estoppel certificates
from tenants (xi) Borrower’s
delivery to Lender a final
certificate of occupancy and lienfree completion of the Property,
(xii) occupancy of Family Practice
of Atlanta and (xiii) satisfactory
Loan Documents.
Closing Date:

Provided Sponsor’s timely delivery
of due diligence materials and
satisfaction of all Conditions
Precedent, within 45 days of
execution of this document and
receipt of Expense Deposit as
defined hereinafter.

Expense Deposit: The signed Loan Proposal must be
accompanied by an expense deposit
of $35,000 (the “Expense Deposit”).
All out-of pocket expenses actually
incurred by Lender in Connection
with the Loan will be paid by

App. 110
Borrower regardless of whether
the Loan closes. These out-ofpocket expenses shall include but
not be limited to Lender’s due
diligence, legal fees, appraisals,
environmental reports, engineering
reports, and all other out-of-pocket
third party expenses related to the
Loan closing. Moreover, if prior to
the Loan closing, Lender
determines that the Expense
Deposit will be insufficient to pay
all expenses, Sponsor shall
promptly deliver to Lender funds
in the amount of such shortfall. In
the event that the Loan closes, any
unused portion of the Expense
Deposit will be deducted from the
Structuring Fee due and payable to
Lender. If the Loan does not close,
any unused portion of the Expense
Deposit will be returned to
Sponsor.
Sale, Assignment Lender will have the right to sell,
or Participation: assign or participate the Loan, in
whole or in part without the
consent of Sponsor. Borrower shall
reasonably cooperate with any
such sale, assignment or
participation.

App. 111
Brokers:

The Loan Documents shall provide
that Sponsor and Borrower shall
indemnify and hold harmless
Lender and its affiliates against
any and all loss, cost, damage,
liability and expenses suffered or
incurred by Lender or its affiliates
arising out of, or in connection
with, any claims by brokers, agents
or finders claiming to have assisted
or represented Sponsor or
Borrower in connection with the
Loan.

Attorneys’ Fees: In the event any party shall
institute any action or proceeding
against the other party relating to
this Loan Proposal, the party not
prevailing in such action or
proceeding shall reimburse the
prevailing party for its
disbursements incurred in
connection therewith and for its
reasonable attorneys’ fees and
costs. In addition to the foregoing
award of attorneys’ fees and costs
to the prevailing party, the
prevailing party shall be entitled to
its attorneys’ fees and costs
incurred in any post-judgment
proceedings to collect or enforce
the judgment, and the foregoing
provision is separate and several

App. 112
and shall survive the merger of
this Loan Proposal into any such
judgment.
Exclusivity:

Sponsor and Borrower agree that
so long as Lender is willing to
provide the Loan on the terms and
conditions set forth herein, neither
of them will negotiate or deal with
any party to obtain financing in
substitution of or in addition to the
Loan with respect to the Property
or any portion thereof or interest
therein until the date that is forty
five (45) days after the date hereof.
If the Loan does not close for any
reason other than Lender’s
determination not to make the
Loan despite Borrower’s
cooperation, and Sponsor or
Borrower, or one of their affiliates,
accepts financing of the Property,
or a commitment to finance the
Property, from a party other than
Lender within forty five (45) days
following the date hereof, then
Sponsor shall pay to Lender an
amount equal to 1.0% of the Loan
Amount specified herein promptly
upon receipt of such financing or
acceptance of such commitment, as
the case may be.

App. 113
Governing Law: The Loan transaction shall be
governed by the laws of the State
of New York.
Not a
Commitment:

This Loan Proposal does not
purport to be and does not
constitute a binding agreement
among the parties, and the
parties hereto shall have no
obligations whatsoever,
express or implied, written or
oral, with regard to the Loan
Proposal. This Loan Proposal
is for discussion purposes only
and does not in any way
whatsoever constitute a
commitment to lend or an
agreement to issue a
commitment, and Lender has
made no commitments or
agreements whatsoever,
express or implied, written or
oral, to Sponsor or Borrower or
with regard to any of the
matters covered by this Loan
Proposal. The terms of this
Loan Proposal are not allinclusive and should not be
construed as to reflect all of
the provisions to be included
in the Loan Documents and
may be varied as the parties
may determine in their sole
and absolute discretion.

App. 114
As evidenced by the signature below, Sponsor
desires to proceed with negotiating terms as
outlined above. Unless otherwise extended in
writing by Lender, this Loan Proposal will expire on
October 31, 2013 (the “Loan Proposal Expiration
Date”). Please indicate your willingness to deliver
the Expense Deposit and proceed subject in all
respects and for all purposes to the non-binding
nature of this Loan Proposal by signing below and
returning this Loan Proposal with the Expense
Deposit no later than the Loan Proposal Expiration
Date. If this letter is not signed and returned by the
Loan Proposal Expiration Date together with the
applicable Expense Deposit (to be submitted within
10 business of the execution of this document), we
will assume that you have elected not to proceed
with us regarding a loan.
Please do not hesitate to call Todd Sammann at 310552-7166 or Michael Sanchez at 310-552-7146 if you
have any questions.
Sincerely,
COLONY CAPITAL ACQUISITIONS, LLC
By: /s/Todd Sammann
Todd Sammann
Authorized Signatory
Acknowledged and agreed as of October __ 2013 by:
Sondial Properties, LLC

App. 115
By: /s/Alphonso Waters
Name: Alphonso Waters
Its: Authorized Signatory

App. 116

APPENDIX J
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-11333-CC
[Filed January 15, 2020]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiff - Appellee,
)
)
versus
)
)
ALPHONSO I. WATERS, JR.,
)
)
Defendant - Appellant. )
________________________________ )
Appeal from the United States District Court
for the Northern District of Georgia
________________________
ORDER:
The motion of Appellant for a stay of the issuance of
the mandate pending the filing of a petition for writ of
certiorari is DENIED, because a stay of the mandate is
not necessary for review by the Supreme Court of this
Court’s decision and judgment. See United States v.
Villamonte-Marquez, 462 U.S. 579, 581 n.2, 103 S.Ct.
2573, 2575 n.2 (1983); Carr v. Zaja, 283 U.S. 52, 53, 51
S.Ct. 360, 360 (1931); The Conqueror, 166 U.S. 110,

App. 117
113, 17 S.Ct. 510, 511 (1897); see also Eugene
Gressman, et al., Supreme Court Practice 851 (9th
Ed.). There is thus no point in staying the mandate
pending the filing of a certiorari petition in this case.
/s/ Ed Carnes
CHIEF JUDGE
ORD-45

